<html>
<title> - CHINA'S POLICIES TOWARD SPIRITUAL MOVEMENTS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
              CHINA'S POLICIES TOWARD SPIRITUAL MOVEMENTS

=======================================================================

                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 18, 2010

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov



                  U.S. GOVERNMENT PRINTING OFFICE
57-902                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3453445b74574147405c5158441a575b591a">[email&#160;protected]</a>  



                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening statement of Douglas Grob, Cochairman's Senior Staff 
  Member, Congressional-Executive Commission on China............     1
Tong, James, Professor, Department of Political Science, 
  University of California-Los Angeles...........................     4
Gutmann, Ethan, Adjunct Fellow, Foundation for Defense of 
  Democracies....................................................     8
Shan, Mark, Program in Philosophy, Theology and Ethics, Boston 
  University.....................................................    13
Cook, Sarah, Asia Research Analyst, Freedom House................    15

                                APPENDIX
                          Prepared Statements

Tong, James......................................................    30
Gutmann, Ethan...................................................    34
Shan, Mark.......................................................    36
Cook, Sarah......................................................    41

                       Submission for the Record

Prepared Statement of Caylan Ford, Falun Gong Practitioner and 
  Volunteer Analyst and Editor, Falun Dafa Information Center....    45


              CHINA'S POLICIES TOWARD SPIRITUAL MOVEMENTS

                              ----------                              


                         FRIDAY, JUNE 18, 2010

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The roundtable was convened, pursuant to notice, at 2:03 
p.m., in room 628, Dirksen Senate Office Building, Douglas Grob 
(Cochairman's Senior Staff Member), presiding.

 OPENING STATEMENT OF DOUGLAS GROB, COCHAIRMAN'S SENIOR STAFF 
      MEMBER, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Mr. Grob. Good afternoon, ladies and gentlemen, and thank 
you very much for joining us here today. On behalf of Senator 
Byron Dorgan, Chairman, and Representative Sander Levin, 
Cochairman, and Charlotte Oldham-Moore, Staff Director of the 
Congressional-Executive Commission on China [CECC], I would 
like to welcome you to this, the 14th Congressional-Executive 
Commission on China roundtable held during the 111th Congress.
    My name is Douglas Grob and I am Cochairman Levin's Senior 
Staff Member.
    We have asked our distinguished panelists here today to 
examine the Chinese Government's policies toward spiritual 
movements and the factors that drive Chinese Government 
officials' treatment of members of spiritual groups. The 
Chinese Government has allowed space for some spiritual 
movements to operate in China, but the Communist Party has 
banned other groups, such as the popular spiritual movement, 
Falun Gong. Authorities have subjected members of Falun Gong 
and other banned groups to strict surveillance and, in some 
cases, imprisonment, detention outside the legal system, and 
other abuses. Why does the Chinese Government consider some 
spiritual movements a threat, and what challenges and prospects 
do Falun Gong practitioners face in China that adherents of 
other groups may not? And what does the Chinese Government's 
treatment of spiritual movements mean for religious freedom in 
China?
    We still do not have a clear understanding of all the 
factors that prompt Chinese authorities to criminalize some 
spiritual movements as ``cult'' organizations.
    We will hear today of individuals subjected to abuse, in 
some cases including detention and imprisonment. These cases 
include those of Wang Chunyan, Qiu Shaojie, Cao Junping, Tian 
Zhongxia, Zhu Lijin, Li Yaohua, Chen Zhenping, Qiao Yongfang, 
and Yan Dongfei. Other cases, some less well known, include the 
cases of Xu Na, Wang Zhiwen, Yang Xiyao, Zhang Binglan, Duan 
Youru, Li Zongbo, and others. These are Falun Gong 
practitioners, but there are cases of members of other 
spiritual movements labeled as cults in China as well, 
including Shi Hua, Gong Shengliang, Tong Houyong, Shu Wenxiang, 
Xie Zhenqi, and others.
    Another case that we will hear about today is that of Gao 
Zhisheng, a prominent Chinese human rights attorney who, in 
late March 2010, resurfaced after having disappeared for more 
than a year and who has now again disappeared. Gao's case has 
attracted international attention due in part to his legal 
advocacy on behalf of religious minorities, including Falun 
Gong practitioners, Christians, and ethnic minorities, rural 
farmers, and human rights advocates. A self-taught lawyer, Gao 
Zhisheng repeatedly has angered Chinese authorities by taking 
on case that authorities deem to be ``sensitive,'' and by 
exposing human rights abuses.
    It is worth noting what both international human rights 
standards and provisions in Chinese law say about the rights of 
members of spiritual movements.
    The Universal Declaration of Human Rights, Article 18, 
says,

          Everyone has the right to freedom of thought, 
        conscience, and religion. This right includes freedom 
        to change his religion or belief and freedom, either 
        alone or in community with others, and in public or 
        private, to manifest his religion or belief in 
        teaching, practice, worship, and observance.

    Article 19 says,

          Everyone has the right to freedom of opinion and 
        expression, and this right includes freedom to hold 
        opinions without interference and to seek, receive, and 
        impart information and ideas through any media and 
        regardless of frontiers.

    Article 20 says,

          Everyone has the right to freedom of peaceful 
        assembly and association.

    The International Covenant on Civil and Political Rights, 
Article 18, says,

          Everyone shall have the right to freedom of thought, 
        conscience, and religion. This right shall include 
        freedom to have or to adopt a religion or belief of his 
        choice, and freedom, either individually or in 
        community with others, and in public or private, to 
        manifest his religions or belief in worship, 
        observance, practice, and teaching. No one shall be 
        subject to coercion which would impair his freedom to 
        have or to adopt a religion or belief of his choice. 
        Freedom to manifest one's religion or beliefs may be 
        subject only to such limitations as are prescribed by 
        law and are necessary to protect public safety, order, 
        health, or morals, or the fundamental rights and 
        freedoms of others. The State Parties to the present 
        Covenant undertake to have respect for the liberty of 
        parents and, when applicable, legal guardians to ensure 
        the religious and moral education of their children in 
        conformity with their own convictions.

    The Constitution of the People's Republic of China, Article 
35, states,

          Citizens of the People's Republic of China enjoy 
        freedom of speech, of the press, of assembly, of 
        association, of procession, and of demonstration.

    Article 36 of the Constitution of the People's Republic of 
China states,

          Citizens of the People's Republic of China enjoy 
        freedom of religious belief. No state organ, public 
        organization, or individual may compel citizens to 
        believe in or not to believe in any religion, nor may 
        they discriminate against citizens who believe in or do 
        not believe in any religion. The state protects normal 
        religious activities. No one may make use of religion 
        to engage in activities that disrupt public order, 
        impair the health of citizens, or interfere with the 
        educational system of the state. Religious bodies and 
        religious affairs are not subject to any foreign 
        domination.

    With that in mind, it is my great pleasure to introduce our 
panelists today. James Tong, professor, UCLA Department of 
Political Science, and chief editor of the Journal of Chinese 
Law and Government. Professor Tong previously served as the 
vice chairman of UCLA's Department of Political Science and 
director of UCLA's Center for East Asian Studies. His 
publications include ``Revenge of the Forbidden City: The 
Suppression of the Falun Gong in China, 1999-2000,'' and a 
number of articles and edited volumes on central and provincial 
religious policy documents in China, ethnic conflict, and the 
1989 democracy movement in Beijing. He has served as a World 
Bank consultant, briefed the U.S. Commission on International 
Religious Freedom, and has participated in a previous CECC 
roundtable on religious regulations, and we're very pleased to 
have you back here today.
    Ethan Gutmann, to my left, is Adjunct Fellow at the 
Foundation for Defense of Democracies. He is currently 
completing a comprehensive history of the clash between Falun 
Gong and the Chinese State, and in addition has begun 
preliminary research into, quote, ``the Chinese Uyghur conflict 
and the underlying ambiguity of the Chinese Communist Party's 
stance toward the Islamist global challenge.'' He is the author 
of, ``Losing the New China: A Story of American Commerce, 
Desire, and Betrayal.'' He is formerly a senior counselor at 
APCO China and a visiting fellow at the Project for the New 
American Century. He has written widely on Chinese military 
development, human rights, the U.S. business scene in Beijing, 
and on recent hacking for the Wall Street Journal, Investor's 
Business Daily, The Weekly Standard, and a number of other 
prominent publications. We are very delighted to have you here 
today.
    To my right is Mark Shan, of the Program in Philosophy, 
Theology and Ethics at Boston University. Mr. Shan has written 
about the house church movement in China, focusing on Christian 
theology and social ethics. He has published two books, ``The 
Future Direction of Churches in China,'' and ``The History of 
Christianity in Xinjiang.'' He also serves as consultant on 
religious and political issues in China for organizations in 
the United States, and he is the primary founder of a newly 
established Chinese Christian Theology Association based in 
Boston. Originally from Xinjiang, China, Mr. Shan now resides 
in Boston where he is pursuing his Christian theological 
studies at Boston University, and we are delighted to have you 
with us today.
    Also to my right is Sarah Cook, Asia Research Analyst at 
Freedom House, and assistant editor for the ``Freedom on the 
Net'' index on Internet and digital media freedom. She has 
served as East Asia Analyst for Freedom House's ``Freedom of 
the Press'' and ``Freedom in the World'' reports. Her research 
has covered human rights and media developments in East Asia, 
Indochina, and the Middle East, including fact-finding trips to 
Hong Kong and Taiwan. Her comments and writings have appeared 
on CNN, the International Herald Tribune, and the Far Eastern 
Economic Review. Before joining Freedom House, she co-edited 
the English translation of ``A China More Just,'' a memoir by 
human rights attorney Gao Zhisheng. She was twice a delegate to 
the United Nations Human Rights Commission meeting in Geneva, 
working on religious freedom in China, and she is currently 
completing an article on the Chinese Communist Party's creation 
and use of the 6-10 Office to suppress Falun Gong and other 
banned spiritual groups.
    All of our panelists' statements are on the table outside 
and will be available online. I would also like to take this 
opportunity to call your attention to an additional statement, 
also available on the table outside, by Ms. Caylan Ford, who is 
here with us today, a volunteer with the Falun Dafa Information 
Center. This statement has been submitted for the record and 
will be available to the public with the other statements from 
this roundtable.
    With that, I would like to turn the floor over to Professor 
Tong. Thank you.
    Professor Tong?
    [The prepared statement of Ms. Ford appears in the 
appendix.]

  STATEMENT OF JAMES TONG, PROFESSOR, DEPARTMENT OF POLITICAL 
         SCIENCE, UNIVERSITY OF CALIFORNIA-LOS ANGELES

    Mr. Tong. My talk today will be on how the Chinese regime 
views the threat posed by the Falun Gong in recent years, and 
also how it differentiates different types of Falun Gong 
members and offenses that they impose legal and also political 
sanctions, and also a few remarks on the implications on the 
larger issues on religious freedom in China.
    On July 22, 1999, when China announced a ban on Falun Gong, 
there were between 2.3 million to about 80 million Falun Gong 
practitioners in China. This wide range results from the fact 
that there is no clear and formal definition of a Falun Gong 
practitioner because, unlike Christians, the Falun Gong has no 
rite of formal induction into the religious community. 
Different levels of Falun Gong organizations also do not 
maintain a membership roster, so there is no accurate count on 
the number of Falun Gong practitioners in China before the ban 
of July 22, 1999.
    These Falun Gong practitioners were organized into about 
28,000 practice sites throughout China and they were further 
grouped into about 1,900 guidance stations, and further grouped 
into about 39 main stations. Every morning, they would gather 
together in the city parks and other public places for 
breathing exercises.
    Since July 22, 1999, these breathing exercises and daily 
assemblies have virtually disappeared. Also disappeared were 
the special convocations. These were larger congregations that 
the Falun Gong practitioners gathered together on special 
congregational anniversaries, and also training seminars 
lasting three to four days, where they learned special 
breathing exercises, meditation techniques, and also Falun Gong 
doctrine.
    These three public forums of organized activities of the 
Falun Gong movement in China have been successfully and 
effectively suppressed in China, and so have been their 
publications. On July 22, 1999, there were at least 11 million 
copies of Falun Gong publications. They belonged to about 11 
Falun Gong titles. These were confiscated.
    On the seventh day of the ban, on July 29, they were 
collected together and set ablaze or turned into paper pulp in 
17 major cities in China. In sum, the Chinese regime has been 
effective in suppressing the public forms of organized 
activities of the Falun Gong movement in China.
    There still have been periodic reports of overt defiance by 
Falun Gong practitioners in China. These include the staging of 
protest rallies in the national and provincial capitals, 
displaying the banner of the Falun Gong in public, and also 
engaging in sabotage of media organizations in China, but these 
have been rare in China in at least the past seven or eight 
years.
    There are three related developments that demonstrate that 
fact. The first is the annual report of the chief procurator in 
China. This is the equivalent to the Attorney General of the 
United States. Every year, the annual procurator report would 
list what are the major law enforcement problems in China in 
that year. In the first five years of the ban on Falun Gong, 
from 1999 to 2003, the Falun Gong was listed as one of the 
major law enforcement problems in China, but it has no longer 
made that list since 2004.
    Below the national level, each of the provincial 
procurators would also make an annual report that mirrors 
largely the national trend. So in 1999, the procurator of 29 of 
the 31 provinces mentioned that the Falun Gong was a major law 
enforcement problem in that province in that year; in 2000, 28 
provinces; 2001, 21 provinces; and since then, there has been a 
precipitous decline. In 2004, there were only seven provinces, 
and in 2008 there were only two provinces where the provincial 
procurator list the Falun Gong as a serious, major law 
enforcement issue in that province.
    The second related development is the end to the followup 
and mopping-up operations conducted by the regime. Since the 
initial blitz in July 1999, there was a second followup 
campaign in the summer of 2001 where, for four months, the 
public security agents would fan out and try to ferret out 
fugitive Falun Gong leaders. They would try to locate where the 
hideouts were. They would also try to search and confiscate 
Falun Gong publications.
    In addition, some provinces conducted single-day operations 
on Falun Gong special days. And in some strong Falun Gong hold-
outs there were 100-day campaigns where public security agents 
would systematically go through all Internet cafes, printing 
presses, photocopying vendors, and rental properties to try to 
locate Falun Gong practitioners and inventories of Falun Gong 
publications. None of these followup campaigns have been 
reported since 2003.
    Then the third development is the reorganization of the 
special agency dealing with the Falun Gong. Forty days before 
the official ban on July 22, the June 10 office was established 
at different levels of government, both at the national and at 
local levels. Their business was exclusively to deal with the 
Falun Gong.
    In April 2002, these offices' mission was broadened to 
include not only other spiritual movements and cults, but also 
collective protests and rallies organized by non-religious 
groups, including, workers who are on strike, and demonstrating 
peasants who were evicted from their farmland.
    In other words, all three developments combined suggest 
that by 2003 or 2004, the Chinese regime did not see the Falun 
Gong as a major law enforcement problem and a security threat 
posed to the regime.
    My second set of remarks are focused on what type of Falun 
Gong practitioners and what type of offenses the regime deemed 
unacceptable, that it levied the legal and political sanctions.
    Let me begin with a reiteration of the basic fact that 
there were at least 2.3 million Falun Gong practitioners in 
China in July 1999. That is four times the total population of 
Washington, DC. If we take the largest estimate, 80 million 
Falun Gong practitioners, that is about a quarter of the total 
population of the United States. There is no way that the 
Chinese regime had the judicial capacity to process all these 
cases.
    In 1998, the year just before the ban, the entire judicial 
system in China handled only 400,000 criminal cases that 
involved 600,000 individuals. If we look at only the three 
major offenses that the Chinese State charged Falun Gong 
practitioners with, these include offenses that endanger the 
state security, endangering the social order, and obstructing 
social order. In 1998, the judicial system in China only 
processed 74,000 of these cases. At this rate, it would have 
taken them 31 years just to clear 2.3 million cases. So they 
have to differentiate on what types of Falun Gong members they 
will levy legal sanctions.
    On the same day that they announced the ban, they 
differentiated them into four different categories. The first 
type are the rank and file Falun Gong practitioners who have 
only participated in breathing exercises. For these, no legal 
sanction was levied.
    The other three types were core members who have committed 
illegal activities. If they would renounce the Falun Gong, 
write a written statement stating their official withdrawal 
from the Falun Gong, and also render an account of their 
activities, there was also no legal and political sanction. For 
political sanction, if they are a government official, or work 
in a government enterprise, they would not be dismissed, they 
would not be demoted, their year-end bonus would not be cut, 
their benefits would not be affected. If they are a member of 
the Chinese Communist Party, they will not be expelled from the 
Party. As for legal sanction, if they have broken a law, but 
would renounce the Falun Gong, and withdraw from the Falun 
Gong, they would not be prosecuted, according to that formal 
announcement.
    The next category are core leaders who have committed 
serious errors, that is, they have facilitated the organizing 
of the protests or they have distributed, or even printed, 
illegal Falun Gong publications. If they renounce the Falun 
Gong and withdraw from Falun Gong, if they would also make a 
conscientious confession, and accrue merit, that is, if they 
would persuade other Falun Gong members to withdraw from Falun 
Gong, if they would point out who are the Falun Gong leaders, 
if they would incriminate these leaders, if they would tell the 
authorities where the publications are hidden, then they would 
also receive no sanction.
    The last type were what the Chinese regime considered to be 
unrepentant core leaders who have committed serious mistakes. 
These are the ones who would receive political and legal 
sanctions. If they have violated what the Chinese State 
considered to be laws, then they would be prosecuted, they 
would be incarcerated or sent to labor reform.
    My last remarks are on the implications for religious 
freedom in China. Religion in China is still a managed 
religion. The Chinese State claims the authority to define what 
is religion and what is not religion, what is a religious 
organization, and what is a cult. It also claims the authority 
to define what is normal religious activity from what is 
considered to be illegal religious activity. At every level of 
government there is a religious affairs bureau that manages the 
religious affairs within its jurisdiction.
    But this capacity to manage religion has been eroded by 
market reforms. On the supply side, market reform has created 
political space where spiritual movements can survive outside 
the control of the Party state. In the Maoist era, virtually 
the entire working population worked for government-owned 
enterprises. They lived in government-owned housing. They 
relied on government-issued food and clothing coupons. But that 
is no longer the case under market reforms. These spiritual 
movements can now find alternative means of employment in the 
non-state sector. There is a housing market. The ration coupons 
have also ended.
    On the demand side, market reforms have also created social 
conflict that the Chinese Government needs to attend to. It is 
not only the rising crime wave that the procurator at both the 
national and provincial levels stress. These are organized 
crime, robberies, bank heists, and drug trafficking. There is 
also the rising wave of collective protests.
    In 1994, there were 10,000 of these collective protests. 
These are unemployed workers, workers who do not receive 
pensions, People's Liberation Army [PLA] soldiers that have 
been discharged with minimum severance pay. These groups have 
staged collective protests. In 1994, there were 10,000, about 
30 incidents per year. But 10 years later in 2004, there were 
74,000 of these collective protests. In one month alone, in May 
2004, there were 2,180 of these collective protests, and each 
one had participants of 500 or more.
    So when compared to these collective protests and the crime 
wave with people demonstrating in the streets or outside the 
government offices, both the Falun Gong as well as other 
spiritual movements would be viewed as rather tame in the eyes 
of the Chinese regime.
    Finally, market reform has also made religious policy a 
collateral beneficiary. In the Maoist era, there was a 
convergence of religious policy with overall political, 
economic, and social policies. But 30 years into the market 
reform, there is a divergence between religious policy on the 
one hand and the political, economic, and social policy on the 
other.
    China today is no longer a Communist State. The major 
Communist anniversaries are no longer celebrated. The 150th 
anniversary of the publication of the Communist Manifesto has 
no People's Daily editorial. The 90th anniversary of the 
Bolshevik Revolution is not celebrated.
    China is not a Leninist economy where there is no private 
ownership of production and where there are no labor and 
capitalists markets. Today there are 150 million account 
holders in the Shanghai and Shenzhen Stock Exchanges. When we 
compare 150 million account holders with 72 million Chinese 
Communist Party members, we can say that there are at least 
twice as many capitalists as Communist members in China.
    In other words, there is divergence between the religious 
policy and overall political, economic, and social policy in 
China today. The Chinese regime has to bridge this divergence. 
It has to adjust its clock in religious policy so that it will 
be run on the same time zone as the political, economic, and 
social policy.
    So on this note, I will conclude my set of remarks. Thank 
you.
    [The prepared statement of Mr. Tong appears in the 
appendix.]
    Mr. Grob. Thank you very much, Professor Tong. Thank you so 
much.
    I would now like to turn the floor over to Ethan Gutmann.

  STATEMENT OF ETHAN GUTMANN, ADJUNCT FELLOW, FOUNDATION FOR 
                     DEFENSE OF DEMOCRACIES

    Mr. Gutmann. Thanks. I want to thank the CECC, but my 
remarks need to go beyond the pro forma on this point. The 
Chinese Communist Party portrays Falun Gong as an evil cult and 
as a terrorist entity. The Chinese State's diplomatic arm has 
made it clear that the Falun Gong issue is non-negotiable. It 
is relevant that this appears to be the first U.S. Government 
hearing or roundtable directly focusing on Falun Gong in a 
decade.
    As a former Beijing business consultant, I do not rely on 
Chinese official statistics. For example, if you attempt to 
generate a population figure for the laogai system--labor 
camps, prisons, black jails, detention centers, and psychiatric 
hospitals--you get a figure well below a million. Yet if one 
counts every detention node and makes common-sense estimates, 
as Laogai Foundation researchers do every year, you get a more 
credible figure of 3 to 5 million.
    According to the U.N. Rapporteur on Torture, Falun Gong 
comprises half of those prisoners, but this figure might be 
high. Much of my research is based on interviews with refugees 
and defectors. I do not ask them for estimates of the laogai 
system, but no matter how traumatized they are, I do expect 
them to remember how many Falun Gong were in their cell block.
    After interviewing over 120 individuals, including 
defectors from inside Chinese security and well over 50 laogai 
refugees, I estimate that Falun Gong comprises between 15 to 20 
percent of the laogai system. That is about half a million to a 
million Falun Gong in detention on average, representing the 
largest Chinese security action since the Maoist period.
    Now we often perceive China's human rights problems as an 
entrenched structure, something similar to how Solzhenitsyn 
describes the Soviet gulag as a large plumbing system. But the 
Party's campaign against Falun Gong more closely resembles a 
blitzkrieg in an increasingly global war, marked by physical 
assaults in the United States--and I'm happy to talk about 
this--Chinese operatives posing as refugees, and coordinated 
hacking of Chinese dissident networks and U.S. Government 
entities.
    We should understand how that war began, we should 
understand the casualty rates, and we should understand the 
stakes of our neutrality. So I thank the CECC again, and 
especially Toy Reid, for making this roundtable a reality.
    I was in Beijing on July 20--really, July 22, I think, as 
Professor Tong points out--1999 when the official crackdown 
began and sound trucks flooded the streets. Western reporters 
were flooding the zone, but they had little cooperation from 
either the Party or Falun Gong at the time, so journalists had 
trouble simply penciling in the first question of any news 
report: What is Falun Gong?
    Falun Gong, simply put, is a Buddhist revival movement. It 
has moral passion, it has occasional talk of miracles, it has 
``Are you running with Me, Master Li? '' individualism, and it 
has a reflexive mistrust of establishments and outsider 
agendas.
    This Buddhist aspect may be unfamiliar and exotic in the 
West, but as Arthur Waldron puts it: ``Anyone who knows Asian 
religion will instantly see that Falun Gong fits into a 
tradition that extends back before the beginning of recorded 
history.'' What made Falun Gong stand out from other Qi Gong 
exercises and meditation practices was a moral system--
compassion, truthfulness, and forbearance--unmistakably 
Buddhist in origin.
    The revivalist aspect helps explain why Falun Gong insists 
on being called practitioners rather than followers. Actually, 
they don't follow well. If you ask 10 Falun Gong practitioners 
for a definition of Falun Gong, you will get 10 different 
answers and probably 10 days of heated discussions. Yet it was 
that same do-it-yourself mentality that allowed Falun Gong to 
attract 70 million practitioners--according to the 6-10 
Office--and skip over the barriers of Chinese society: class, 
education, rural/urban, civilian/military, and Party 
membership.
    Go back to 1995 and follow a diminutive old woman around 
Yuan Ming Park in West Beijing. Ding Jing was a Falun Gong 
coordinator, meaning she taught the exercises, and she kept 
practice sites clean. Among the sites were three locations. One 
catered to employees from China Central Television; two, the 
Xinhua News Agency; and three--very well attended--attracted 
Party officials, their wives, and employees of the Public 
Security Bureau.
    From a Marxist perspective, which venerates the seizure of 
power using this exact template, Ding's tidy practice sites 
represented something terrifying. In 1996, ``Zhuan Falun,'' in 
essence the Falun Gong bible, was taken out of print.
    Given the amorphous, floating world in which practitioners 
traveled--largely perceived as amorphous and floating anyway--a 
world without membership lists, central authority, or any real 
hierarchy other than on paper, practitioners did not panic. But 
Luo Gan, the head of the Public Security Bureau, began to use 
Falun Gong's perceived infiltration of his own department to 
gather, to report, and to study. Where no hierarchy existed, 
the Party, seizing on small clues such as Ding's phone calls, 
would map one. Where no political objectives existed, the Party 
would create them.
    Until 1997, the Chinese media stayed neutral. Local Party 
leaders would show up at Falun Dafa rallies. Now critical 
language began to appear in the Party-controlled media. These 
were flares in the night's sky, indicating the Party was trying 
something out. The Falun Gong had a method to handle this: Show 
up en masse, stay silent, and then stand around until someone 
talks to you. This technique smoothly reversed the various 
negative reports, articles in 1997, a Beijing TV segment in 
1998. In Tianjin in 1999--it failed.
    Now, I do not know if the article has been handed out yet, 
but you can certainly find it on the Web if it has not made it 
here, and you may be able to pick it up on the way out: ``An 
Occurrence on Fuyou Street.'' Employing interviews from both 
sides, my article tracks the events from Xinjiang on April 22 
to Beijing on April 25, 1999. Essentially, the demonstration 
was a set-up. From the portable surveillance cameras on Fuyou 
Street to the armed military unit at the Forbidden City, it was 
a Party bait-and-switch to create momentum for a state-level 
crackdown.
    A former district-level official--``Minister X,'' that's 
what I call him--recalls the Party's decision to eliminate 
Falun Gong was circulated internally long before any public 
ban, and he was told to stop granting business licenses to 
Falun Gong practitioners. A Falun Gong source saw a similar 
communique at Tsinghua University in 1998. A former official of 
the 6-10 Office--the secret agency created to eliminate Falun 
Gong--noting the level of detail in practitioner files, 
believes that operations must have begun by at least 1998.
    Without understanding the initial integration of Falun Gong 
into the Party and the Party's initiative in starting the war--
essentially creating the dilemma that threatens the Party 
today--one cannot understand the ineffectiveness of the Falun 
Gong response. Practitioners wanted to believe that it was a 
misunderstanding. So practitioner appearances at the petition 
office and signed letters were followed by mass detentions and 
the first deaths in custody.
    Beginning in 2000, based on the safe house occupancy in 
Beijing, I estimate that well over 150,000 practitioners made 
their way into Tiananmen Square to protest over a year's time. 
Collectively, that is a remarkable number. But they trickled in 
at 500 to 1,000 per day, and they stood up and unfurled their 
banners according to the dictates of their soul rather than any 
sort of preconceived strategy.
    Would a mass strategy even have been possible? Well, I have 
provided another article--``Hacker Nation''--on 6-10 
surveillance:

          Before 1999, Falun Gong practitioners hadn't 
        systematically used the Internet as an organizing tool. 
        But now that they were isolated, fragmented, and 
        searching for a way to organize and change government 
        policy, they jumped online, employing code words, 
        avoiding specifics, communicating in short bursts. But 
        like a cat listening to mice squeak in a pitch-black 
        house, the ``Internet Spying'' section of the 6-10 
        Office could find their exact location, having 
        developed the ability to search and spy as a result of 
        . . . a joint venture between the Shandong Province 
        public security bureau, and Cisco Systems.

    That's right out of my article, and there is a lot more in 
there as well.
    Following capture and initial interrogation under the 6-10 
Office, the laogai system then operated to break the will and 
``transform'' the practitioner, culminating with a public 
denunciation of Falun Gong. But it was within the laogai itself 
that the first effective resistance began.
    Wang Yuzhi was a tough, successful Beijing businesswoman. 
And when the crackdown started she transformed her office into 
a secret Falun Gong printing press. It was broken up, her 
assets were seized, Wang ran, and was eventually caught.
    The low-ball casualty figure of over 3,000 practitioners 
who have died by torture is reasonably well-documented. Some 
practitioners simply refused to renounce their belief, others 
hoped that the over-crowded prisons might contribute to the end 
of the persecution, and others wanted to just set an example to 
fellow inmates.
    But Wang made it personal, so personal that some of the 
guards force-feeding her began wearing paper bag masks so she 
could not identify them. It became a chess game between the 
practitioner and the torturers. Both sides knew that Wang's 
screams of rage were becoming legendary throughout the laogai 
System, and indeed, to practitioners throughout the world. Both 
sides knew that checkmate, actually killing Wang, would leave a 
pyrrhic victory for the state.
    The underlying ambiguity of the laogai position was 
expressed in the following maneuver. Rather than writing up a 
report of transformation failure, or the euphemism ``death by 
suicide,'' many labor camps and psychiatric centers would wait 
until the torture reached lethal levels and then suddenly free 
the dying practitioner--especially after the so-called 
Tiananmen self-immolation and the Changchun television 
hijacking and I would welcome questions on those incidents.
    But Wang Yuzhi lived. Considered terminal on release, she 
fled China and went on to purchase printing presses for The 
Epoch Times. Today she will smile at you with her one good eye. 
This is the face of insurgency, and to such a face, the Party 
turned toward a more permanent solution.
    The final article that I have made available, ``China's 
Gruesome Organ Harvest,'' documents a pattern of retail-organs-
only physical examinations carried out throughout the laogai 
system. I can find no rational medical explanation for these 
procedures, and I conclude that the commercial harvesting of 
Falun Gong is real. That finding has since been confirmed by a 
Taiwanese surgeon who arranges transplants on the Mainland.
    One addition. While the Bush Administration's consistent 
focus on house Christians may have had a ``Schindler's List'' 
effect, inhibiting widespread harvesting of Christians, members 
of at least one sect, Eastern Lightening, were examined for 
harvesting. According to interviews by my colleague Jaya 
Gibson, so were some Tibetan prisoners.
    Yet harvesting of political and religious prisoners 
probably began in Xinjiang. A Uyghur policeman witnessed 
preparation for a procedure in 1994, and I recently interviewed 
a Uyghur surgeon who, in 1995, was ordered to take his medical 
team into the outskirts of Urumqi and remove a prisoner's 
organs while the heart was still beating.
    Perhaps harvesting began as a purely black-market 
operation, but ultimately prisoners who would not transform--
the Wang Yuzhis of this world, if you like--became too 
dangerous to release. But the Party had an outlet, the organ 
tourists of Japan, Europe, and the United States.
    Now, the fact that China is the one currently pulling up 
the reins on Western organ tourism highlights Falun Gong's 
stunning lack of success in making its case in the United 
States. I mean, one would expect that it would be Congress who 
would be preventing organ tourists from going over to China, 
but it's not. It's the Party, and they seem to be pulling back 
on organ harvesting.
    Let me explain what I think happened in the United States. 
For many in the Bush Administration at least, it took one 
outburst from Wang Wenyi on the White House lawn to establish 
that Falun Gong could never be reliable allies. For many 
Democrats, it took one Chinese-planted Wikipedia reference 
alleging Falun Gong was anti-gay to ward off sympathy. Yet 
Falun Gong teachings on this point are essentially 
indistinguishable from traditional Christianity, Judaism, 
Islam, and Buddhism.
    Practitioners have some responsibility here, too. In the 
West, they simultaneously watch two screens. They watch a 
Western one and they watch a Chinese one. But for them, China 
is always the default. And fear of the Party's manipulative 
abilities on that screen run very deep indeed. Hence, we see 
the definitional problems, we see the alienating public torture 
displays and the rest, and we see Daoist demarcations of good 
and evil. Again, all of these are aimed at the Mainland.
    Yet Falun Gong's tunnel vision did create one unprecedented 
success. Along with the construction of the greatest dissident 
media apparatus in modern Chinese history, a small group of 
Falun Gong engineers, based out of a North Carolina suburb, 
devised an Internet lifeline to transmit information in and out 
of China. Along the way, they facilitated the only unblocked 
Internet transmissions out of Iran during the aborted Green 
Revolution.
    If the press is correct, the State Department is 
considering awarding these engineers, now known as the Global 
Internet Freedom Consortium, significant funding to do more. If 
my Falun Gong sources are correct, the Consortium is concerned 
about taking a sum too small to make a difference, in exchange 
for the inevitable Party propaganda point that they are now 
U.S. agents.
    Yet the Party is pushing the two sides together. The State 
Department must end Chinese hacking, and the only way State can 
do it is by threatening China's Big Brother Internet. Falun 
Gong has perhaps a half a million to a million in captivity; as 
much as 1 out of 10 Falun Gong may have already been lost to 
the surgical knife.
    So the answer to this dilemma will not be found in parsing 
Wikipedia. And the question is no longer--``What is Falun Gong 
and how do they define themselves? '' But rather--``What are 
Falun Gong's actions? What has the Falun Gong achieved? Against 
what sort of odds? '' And here, I believe that the evidence of 
a decade, from the laogai to the North Carolina suburbs, speaks 
for itself.
    [The prepared statement of Mr. Gutmann appears in the 
appendix.]
    Mr. Grob. Thank you very much.
    Mr. Shan?

  STATEMENT OF MARK SHAN, PROGRAM IN PHILOSOPHY, THEOLOGY AND 
                   ETHICS, BOSTON UNIVERSITY

    Mr. Shan. Good afternoon, ladies and gentlemen, CECC 
members, staff, and interns.
    The roundtable host, the CECC, asked the question, ``What 
factors influence the Chinese Government's policies toward 
spiritual movements and drive its treatment of members of 
spiritual groups? The Chinese Government has allowed space for 
some spiritual movements to operate in China, but has banned 
other groups such as Falun Gong. Why does the Chinese 
Government consider some spiritual movements a threat? ''
    These questions touch the root of Chinese political/
religious culture. My following remarks are trying to find out 
a rationale behind these policies, yet have no intention to 
justify the policies.
    For a better understanding, first I need to introduce a 
concept in traditional Chinese political ideology which 
influenced throughout the history of China, and that is ``the 
Mandate of Heaven.'' The concept officially started by the Zhou 
Dynasty in 11th century B.C. to justify their replacement of 
the Shang Dynasty.
    Because the concept justified all successful overthrows, 
just as it justified all dynasties that clung to power, the 
concept has lasting influence and has even survived into modern 
and contemporary China. For instance, in the modern period, a 
famous revolution was called The Kingdom of Heavenly Peace 
Movement, led by Hong Xiuquan in the middle of the 19th 
century. Again in the modern time, another man, Sun Zhongshan, 
famous for leading a revolution against the Qing Dynasty, also 
can reflect this kind of concept.
    Because of the spiritual feature of this political concept, 
spiritual or religious movements in Chinese history make it 
easy to challenge the ruling of dynasties through spiritual and 
moral approaches. So the Chinese Governments have been 
sensitive throughout its history to the political/spiritual 
touch and are not tolerant of any spiritual movements shaking 
their ruling authority, before the Chinese people especially.
    In addition, Chinese Governments have tended to keep state 
and religion separated through promoting a non-religious 
system, Confucianism, throughout much of their history. Indeed, 
this is an efficient way to keep religious or spiritual 
movements out of politics.
    Throughout Chinese history, all the Chinese Governments set 
up this forbidden area: do not touch politics. Do not play 
around with the concept of the Mandate of Heaven. The only 
politics you can touch are the politics that support rulings of 
government. So based on the understanding of this concept, we 
can find out the rationale behind the political religious 
policy of China today, which is why the Chinese Government 
treats different spiritual movements differently.
    For example, the Protestant Christian house churches and 
the Catholic underground house churches. They are persecuted, 
but the Protestant and the Catholic churches that are 
officially public through the Three-Self Patriotic System 
[TSPM] enjoy more freedom.
    Tibetan Buddhism is under suppression because of its 
feature of the religion/politics combination in its doctrine 
and tradition. But Buddhism and Daoism in other parts of China 
enjoy much more freedom because they touch no politics. Islam 
among Uyghurs is under suppression because of the Xinjiang 
political situation, the problems there, but Islam among Hui 
people enjoys more freedom.
    This is true not only inside the same spiritual traditions 
or religious traditions, but also if we compare government's 
treatments among different spiritual movements or religions in 
China.
    Now we are going to talk about the Falun Gong movement. The 
Falun Gong movement was suppressed a lot, as Mr. Tong and Ethan 
mentioned. Actually the Falun Gong movement is only one branch 
of the Qi Gong, but the Falun Gong even was suppressed more 
than other Qi Gong branches. So, why? Because on April 25, 
1999, the siege of the Chinese Communist Party headquarters in 
Beijing by the Falun Gong movement members, more than 20,000, 
really touched the nerve of politics.
    We also see, after the Falun Gong movement went abroad 
here, there is one famous slogan from the Falun Gong movement. 
It says, ``Heaven eliminates the Chinese Communist Party,'' 
encouraging people to withdraw from the Communist Party. This 
is another interpretation of the concept of the Mandate of 
Heaven.
    So that is why a human rights Christian lawyer in China, 
Gao Zhisheng, has received the most serious, inhumane 
persecutions, even compared to other persecuted lawyers, 
because he is trying to defend religious freedom and the human 
rights of some Falun Gong practitioners.
    The CECC also asked another question: ``What does the 
Chinese Government's treatments of the spiritual movement mean 
for the future of religious freedom in China? ''
    This is another interesting question. A sociologist, Dr. 
Yang Fenggang, proposed a triple color model that analyzes the 
religious situation in contemporary China. Through this formula 
we can see that he divided three markets: the red market, which 
means official, permitted religions; a black market means 
officially banned religions; and a gray market, religions with 
ambiguous legal status. Through this formula we can pretty much 
answer this question from this perspective.
    The red market means religious or spiritual movements which 
do not touch on politics, so they have the most freedom, like 
non-Tibetan Buddhism and Daoism. A black market religious 
market means the banned ones, such as the Falun Gong movement 
and some branches of Islam in Xinjiang--some branches--which 
touch on politics, challenging the Communist Party authority; 
so they have the most suppression.
    The gray market, which is ambiguous in their political 
interest, are things such as non-institutionalized Protestant 
house church entities. The Catholic underground church is a 
little bit different because they are closer to the black 
market because of the political feature extending from the 
Vatican court.
    The gray market of the non-institutional house church 
movement has grown large and will grow larger, when others are 
encouraged or suppressed. Of course, there is a dilemma. If 
this house church movement, the gray market, grows really 
large, then it becomes more political.
    In China, also, this kind of house church movement, the 
people, they are trying to deal with the policies in a unique 
way. So in church settings in China, they focus on teachings, 
like Biblical teachings, such as ``Blessed are those who are 
persecuted,'' ``Love your enemy and even love the 
persecutors.'' Also, they emphasize in their teachings that 
they do not touch politics. They do not touch politics. The 
president of ChinaAid, Bob Fu, was arrested in Beijing and was 
trying to argue, we do not touch politics; we support church/
state separation; something like that.
    But of course, China is trying to suppress the house church 
movements and its Christians too, because they learn lessons 
from Eastern Europe. When those Communist countries collapsed, 
Christianity played an indirect role.
    So together, I think in China, Christianity, in the gray 
market and also even in the red market, TSPM churches, they are 
going to transform the condition of religious freedom in China 
significantly in the future, especially through something we 
call the new non-institutionalized religious citizen community, 
established in the whole nation, but it is not kind of an 
hierarchical, administrative, visible system.
    Those are my remarks.
    [The prepared statement of Mr. Shan appears in the 
appendix.]
    Mr. Grob. Thank you very much, Mr. Shan.
    And now, finally, we'd like to hear from Sarah Cook. Thank 
you.

 STATEMENT OF SARAH COOK, ASIA RESEARCH ANALYST, FREEDOM HOUSE

    Ms. Cook. Good afternoon, everyone. One of the topics I was 
asked to speak about is the story of Gao Zhisheng, who you can 
see here [holds up copy of ``A China More Just'']. As Doug had 
mentioned, he's a leading Chinese human rights lawyer and has 
been a vocal advocate for religious freedom in China, 
particularly of Falun Gong practitioners.
    Several years ago, I had the real honor of co-editing this 
English edition of his memoir, and so as I was thinking about 
how I would begin today, I tried to think about what Gao would 
say if he were here himself. He has disappeared, as Doug had 
mentioned, so that is why he can't be here today. I think the 
first thing he would say is a real heart-felt thank you.
    First, thank you to the Commission for organizing this 
panel, thank you to the U.S. Government for taking an active 
interest in the human rights abuses happening to Chinese 
people, and thank you to all of you in the audience who are 
here to listen to what the four of us have to say.
    Second, I think he would likely try to convey the real 
urgency of the current situation and the ongoing brutality of 
the treatment suffered by large numbers of Chinese people 
generally, but of Falun Gong practitioners in particular. One 
of the things that is very clear from his writings is that 
account after account after account of torture that he heard 
while interviewing Falun Gong practitioners left a very 
profound impression on him and really served as a catalyst for 
his taking the risks that he has taken in order to defend them.
    So I am just going to briefly read a short portion from one 
of the things he had written:

          With a trembling heart and a trembling pen, I record 
        the tragic experiences of those who have been 
        persecuted in the last six years. Of all the true 
        accounts of incredible violence that I have heard, of 
        all the records of the government's inhuman torture of 
        its own people, what has shaken me most is the routine 
        practice of police assaulting women's genitals. Almost 
        all those who have been persecuted, be they male or 
        female, were stripped naked before being tortured. No 
        words can describe our government's vulgarity and 
        immorality.

    Now, while not spoken in quite such detailed and colorful 
language, Freedom House's findings generally correlate to what 
Gao had found. But before I move on to some of the specific 
details that have arisen from our reports over the last 10 
years, I did want to take a step back to address a slightly 
different angle about why this kind of suppression might take 
place. It doesn't, indeed, happen in a vacuum.
    Rather, what has been happening to Falun Gong and spiritual 
movements who are banned in China is really part of a much 
broader, elaborate machinery of repression that systematically 
tries to control and deny independent thought and expression in 
a range of areas throughout Chinese society. In many ways, 
Freedom House's reports in recent years have found that this 
repression has been getting worse in certain areas.
    As Professor Tong had mentioned, the dynamic in China right 
now is very different from what it was like during the Cultural 
Revolution. But some of the underlying principles and 
institutional dynamics remain the same in the sense that the 
decision of what is approved or forbidden can be made 
arbitrarily by Party leaders based on their own perceptions of 
the threats to their monopoly on power or legitimacy, whether 
these threats are real or imagined.
    As someone who follows Chinese media very closely, I see 
this dynamic played out on a day-to-day basis with the kinds of 
propaganda directives that the Communist Party's Propaganda 
Department issues to media outlets throughout China, where 
there will be certain items that one day will be permitted and 
the next day will not be permitted.
    So whatever the specific timeline of events that happened 
in the mid- to late 1990s surrounding Falun Gong or some of the 
other Christian groups that Mr. Shan mentioned, overall, one 
way of thinking about the situation is that Party leaders were 
able to ban these groups because: (A) they could, and there was 
no institutional mechanism like an independent judiciary to 
stop them from being able to do that; and (B) because the 
Communist Party generally is very reluctant to tolerate groups 
or individuals who place any authority, spiritual or otherwise, 
above their allegiance to the Party.
    Sometimes people use the term ``political'' to 
differentiate between incidents that trip the Party's wire or 
not. But I personally find this idea of whether one is giving 
allegiance to the Party first or is willing to make changes 
based on the Party's demands to be more helpful in terms of 
thinking about what really touches the nerves of the Communist 
Party.
    So for Tibetans, it is the authority of the Dalai Lama. For 
persecuted human rights lawyers like Gao Zhisheng, it's the 
authority of the law and the idea of placing the authority of 
the law above the authority of the Party. For Falun Gong 
practitioners, it is a dedication to teachings centered on 
truthfulness, compassion, and tolerance, and the idea that 
these are the primary principles that one should follow in day-
to-day life, rather than perhaps something that the Communist 
Party may or may not tell one to do.
    To me, one of the crucial elements that helps to understand 
this dynamic is this idea of ``transformation'' that Ethan 
Gutmann mentioned. Whether it is Falun Gong practitioners, or 
in some cases people like Gao Zhisheng and others, this very 
real focus on transformation and on reeducation, which means 
that people are not necessarily being arrested because they're 
organizing politically or organizing into some kind of group. 
Rather, certainly in the more spiritual cases, the efforts by 
the authorities are to get these people to change how they 
think.
    It is very Orwellian, when you talk to practitioners and 
others who have been persecuted in this way. It is very much 
like the Party is torturing you to get you to say 2+2=5. If you 
keep saying 2+2=4, even if you know 2+2=4, then that in itself 
can create a conflict and is one of the things that the Chinese 
Communist Party finds threatening.
    I just thought that might be another angle that could be 
helpful for thinking about these kinds of questions. In terms 
of some of the findings that Freedom House reports have 
indicated over the past 10 years, I went through many of the 
reports and I am just going to talk about a few of the aspects, 
and then I'll turn a little bit more in detail to Gao 
Zhisheng's story.
    First, is this issue of large-scale detentions and 
widespread surveillance. According to our findings, perhaps 
after a lull because there was such an intense level of 
detentions and surveillance in the early years of the 
persecution, in the last couple of years, with the run-up to 
the Olympics and with a series of politically sensitive 
anniversaries, and as part of a much broader crackdown and 
intensification of the Communist Party's efforts to control 
Chinese society, we saw an intensification of the pressure on 
Falun Gong practitioners. There is a range of abuses, though. 
Some are arrested and some are not. Some are put under 
surveillance. But we certainly saw an intensification of those 
efforts targeting that group.
    Second, is ongoing torture and deaths in custody. At 
Freedom House, we do not have the resources to maintain a 
comprehensive record of these deaths, but every year there are 
several well-documented cases of Falun Gong practitioners who 
are picked up and then killed in custody. There was one Beijing 
musician, in early 2008, who was stopped by police with his 
wife and the officers found Falun Gong literature in their car 
and the two were detained. He died in custody 11 days later. He 
was in his early forties. His wife was subsequently sentenced 
to three years in prison.
    So there are cases like that, and as Ethan had mentioned, 
there are overseas Falun Gong groups who have collected pretty 
detailed accounts, even though it has not been fully 
independently verified, of over 3,000 cases similar to this 
young man's.
    The third thing that we've observed is the sentencing of 
practitioners to long prison terms following unfair trials or 
to reeducation through labor camps by bureaucratic fiat. I 
would tend to agree with Ethan's efforts to try to understand 
what the real number is of people who are detained in these 
camps.
    There was a fascinating study by the Chinese Human Rights 
Defenders group, if anyone would like to look it up, from 
February 2009, where they went and spoke to petitioners who had 
recently been released from labor camps and interviewed them. 
Many of these people said that, in addition to the petty 
thieves and drug addicts who make up many of the people in the 
reeducation through labor camps, Falun Gong practitioners 
constituted a significant percentage of the people in those 
camps and there were quite a large number of Christians in some 
of those facilities as well.
    Some of the conversations I have personally had with people 
who came out of these camps included their talking about 140 
religious prisoners, mostly Falun Gong practitioners, sometimes 
several hundred within an individual camp. So when you look at 
the nationwide labor camp population and you start to do the 
math, thinking about how many hundreds of camps there are in 
China, the number gets up very high, into the tens of 
thousands, quite quickly.
    The last thing, as I mentioned earlier, is that I do quite 
a bit of research on Chinese media and the Internet. Clearly, 
Falun Gong is one of the permanent taboo topics and really one 
of the most systematically censored on the Chinese Internet. 
But what you also see happening is that people who try to 
spread information anyway end up getting imprisoned and they 
could be Falun Gong practitioners or non-Falun Gong 
practitioners. There was a recent case of a Chinese democracy 
activist who was sentenced to three years in prison because he 
had been caught with DVDs that had information related to Falun 
Gong on them.
    So it is in the context of this kind of large-scale 
persecution of religious minorities that Gao Zhisheng and some 
of the other lawyers who have sought to represent Falun Gong 
practitioners come into the picture. Just a little bit of brief 
background on Gao: He was born in rural Shaanxi Province, where 
there are these cave dwellings, and that's where he grew up.
    In the late 1980s, he was selling vegetables on the streets 
of Xinjiang Province and saw an advertisement that China wanted 
to train more lawyers. So, with just a middle-school education, 
he taught himself law, and in 1995, he passed the bar exam. 
Almost immediately he started taking pro bono cases for the 
full gamut of vulnerable groups, from coal miners, to workers. 
He very quickly became known nationwide and was actually named 
by the Ministry of Justice itself as one of the Top 10 Lawyers 
in China in 2001.
    So it was in this context that, in 2004, Falun Gong 
practitioners started approaching him to see if this lawyer 
could help them, and he was hired by an adherent who had been 
sentenced to a labor camp. He tried to file for judicial 
review, to have that person's case reviewed, because the man 
had done nothing wrong, other than being known as a Falun Gong 
practitioner.
    He went to the judges and the judges would not even look at 
the case. They would say, ``Don't you know we don't take Falun 
Gong cases? '' So what he decided to do as recourse was to 
write a letter to the National People's Congress. But the 
incident also sparked his interest in doing a more systematic 
investigation into what was happening to this group. It was as 
a result of those investigations that, in October and December 
2005, he wrote the two open letters to Hu Jintao and Wen Jiabao 
that Doug mentioned earlier.
    As Doug mentioned, in response, he and his family have been 
put under increasing pressure and abuse themselves. I will not 
go through all of the details of the last few years since Doug 
had spoken about it, but he disappeared several times and was 
held in incommunicado detention. It was really only in early 
February 2009, in an incredible feat of courage, that we 
learned the full details of the torture he had suffered during 
one of his previous detentions.
    He issued a letter that was published overseas after he 
managed to sneak it out. In it, he chronicles being stripped 
naked and shocked with electric batons on his genitals, among 
other acts of torture. The guards, at least the way he 
describes it, told him that the conclusions of his 
investigations into what had happened to Falun Gong 
practitioners were indeed accurate, and in fact, the very 
torture methods they were using on him were ones that had been 
``perfected'' on Falun Gong practitioners previously.
    Similar to this point of ``transformation'' that I was 
talking about, they continuously tried to pressure him that if 
he would simply write some kind of article attacking Falun 
Gong, denouncing the previous letters he had written and 
praising the Party, then the torture would cease.
    Eventually he was released, but almost immediately with the 
release and publication of this letter he was abducted again. 
His family fled to Thailand from China and is now in New York, 
but he has remained disappeared throughout most of 2009. Many 
of his friends, colleagues, and lawyers thought he had actually 
been killed in prison. He resurfaced in March 2010, and then 
disappeared again in April 2010.
    Ironically, Gao actually never got a chance to represent a 
Falun Gong practitioner in court, but there are over 20 lawyers 
who have followed his lead--and he really broke open this 
taboo--and have done so.
    In response, they have also faced temporary or permanent 
disbarment or being beaten. In at least one case, a lawyer, 
Wang Yonghang, was imprisoned for seven years under the same 
legal provision--that is, this vague legal provision--used to 
justify the imprisonment of his Falun Gong clients.
    The treatment of these lawyers raises two broader points 
related to the future of religious freedom, but also the future 
of the rule of law. First, what you see very clearly is that 
the tactics that are used and developed to suppress one group 
can be quickly applied to others. From the vague legal 
provisions, to ``black jails,'' to torture and transformation 
methods, we have seen these spreading.
    In fact, when you speak to the lawyers and you ask them why 
they are taking on these super-sensitive cases that are clearly 
putting them and their families at tremendous risk, it is 
because, at least the way they explain it, that they feel very 
strongly that if this can happen to a group like Falun Gong 
practitioners then it can happen to anyone. Especially, since 
many of them are Christians, they feel that it could also 
happen to Christians and that the only way to protect believers 
is to create the kind of independent institutions and rule of 
law that will protect citizens from the Party's arbitrary 
actions.
    Second, I think the more depressing side of it is that the 
Communist Party's very intransigent and harsh response to these 
lawyers really points to the limitations for progress toward 
the rule of law under the current Communist Party leadership. 
According to experts like Jerome Cohen, even reforms that had 
taken place in previous years have been backsliding.
    The point I want to conclude with is actually optimistic, 
believe it or not, because parallel to this increased 
repression that we've seen is also a growing rights 
consciousness among ordinary citizens. In fact, you could argue 
that the increasing insecurity of the regime and its increased 
repression is in response to this growing and more assertive 
Chinese citizenry. Along with workers, bloggers, and 
journalists, Falun Gong practitioners are also those, as Ethan 
mentioned, who have used incredible ingenuity and creativity to 
challenge the repression against them.
    So I am just going to end with one last quotation from Gao, 
where he reflects, in terms of his own observations, on the 
effects that some of these actions, whether it is through the 
Internet or other types of grassroots efforts to talk to the 
Chinese people and try to convince them to change how they 
think about Falun Gong.

          More and more people around me, including 
        professional scholars, government staff members, and 
        ordinary Chinese citizens have begun to question the 
        rationale behind the campaign against these believers. 
        This has been a palpable change. These people have come 
        to realize how unjust, inhumane, and lawless the 
        government's violent persecution of the Falun Gong 
        people is. This rapid, widespread change in attitude 
        stands in stark contrast to the government's static, 
        outdated practices.

    Now, if you talk to a lot of Chinese people, largely 
because of the media censorship and fears of repercussion, you 
can get all kinds of answers related to what they think about 
Falun Gong. But it's still quite interesting to hear from 
somebody like Gao Zhisheng, who is tapped into the grassroots 
level of society that at least with some of the people in the 
circles that he was interacting with, there had been a change 
in how they were thinking about this group.
    So, I just wanted to say thank you, and to end on the last 
thought that I really do hope that at some point Gao Zhisheng 
will be able to be here himself to share with you what he has 
to say.
    [The prepared statement of Ms. Cook appears in the 
appendix.]
    Mr. Grob. Thank you very much, Sarah.
    Thank you to all four of our panelists for some outstanding 
presentations.
    I would like to open the floor up, for the time remaining, 
for questions.
    Ms. Ford. I submitted written testimony for the record and 
it's outside. But going to this basic question raised by the 
panel, of how do we understand the causes of the suppression in 
China and what are some of the prospects for reconciliation 
between Falun Gong and the Communist Party. In order to 
understand those questions, it's valuable to look back at 1999 
and really try to understand what the social dynamics were that 
led to the ban on Falun Gong.
    Mr. Grob. Would you stand, please, and turn around?
    Ms. Ford. You've heard a few different explanations for why 
Falun Gong was initially targeted, and those include peaceful 
demonstration at Zhongnanhai in April 1999, which as Ethan has 
alluded to, may have been something of a bait and switch. We 
also heard about sort of institutional reasons; Falun Gong is a 
large, independent civil society organization, and in China you 
simply don't have large, independent civil society 
organizations--let alone spiritual or religious groups. There's 
also the size of Falun Gong, a few million on the very low end, 
up to, by some estimates, 70 to 100 million at the high end. 
This represents an enormous number of people who are operating 
outside of official sanction.
     I could go on. Scholars have posited a number of other 
explanations in the broader historical context. But in my view, 
I think you need to look at the nature of the Party itself. The 
Party is essentially a theocracy. It's a theocracy, except that 
it's purely a secular one. But it's essentially a religion. The 
fact that people don't believe in the Marxist religion doesn't 
make that any less so, it just means that the appeal of the 
theology is more tenuous. And so the Falun Gong, not 
deliberately but just by its mere existence and its spiritual 
orientation, poses a challenge to that. Falun Gong is 
associated with the Buddhist school of thought, so it 
implicitly challenges the atheism of the party.
    Falun Gong, for instance, holds a belief in divine 
authority, where Marxism believes in human agency. Falun Gong 
teaches that morality, compassion, and virtue are measures of 
progress and value, where the Communist Party believes in 
material progress. When Falun Gong was first banned in 1999, 
the official editorials from the state-run press actually 
posited that this was the cause of the ban; they put forth a 
dichotomy between theism and atheism, and suggested that Falun 
Gong's spirituality and emphasis on virtue and the divine was 
incompatible with the official ideology. I think probably the 
most candid statement came from an editorial in Xinhua on July 
27, 1999, which said simply that the truth, compassion, and 
tolerance principles preached by the Falun Gong have nothing in 
common with the Socialist ethic and cultural progress we are 
trying to achieve. There are more of these kinds of remarks in 
my written testimony. But I think this underlies the fact that 
Falun Gong is not a legitimate threat, it's not political, and 
it's certainly never sought to be a political threat to the 
ruling party. What the Communist Party fears is people who 
derive moral authority from something other than itself.
    So I think this sort of understanding is just useful in 
evaluating, what are the prospects of reconciliation, what are 
the prospects for ending the persecution. I'll stop there 
because I know that we're somewhat over time. So, thanks for 
the opportunity to share that.
    Mr. Grob. Thank you very much for those remarks.
    Yes, please. Mr. Geheran?
    Mr. Geheran. Hi. I'm Jim Geheran with Intiatives for China. 
Thank you. This is a most wonderful panel here. What I'm 
hearing is that it's the very nature of the Chinese Government 
that they see anything that poses principles or an organization 
that is hedging on their power is a threat and is fair game to 
be stamped out. So the conclusion that I'm hearing is that the 
Government of China, despite its claims of harmony and 
stability, has succeeded in alienating just about every segment 
of Chinese society, whether it's religious, labor, or whatever.
    My question to you, if anyone cares to comment on it, is: 
Where is all this alienation going? Where is this frustration 
being parked if so much of the Chinese population is being 
alienated, and what are the consequences for stability that the 
apparent policy of the American Government is just to look the 
other way? Are we setting ourselves up for another revolution?
    Mr. Grob. Thank you very much.
    Professor Tong, would you like to comment?
    Mr. Tong. I think this is an important political agenda 
among the Party leadership. I don't think anyone knows the 
answer. They don't have any solution to it. The way they try to 
handle the problem is to manage the problem and not to 
eradicate it. They try to localize it so that either labor 
movements or discharged PLA soldiers or persons would not form 
cross-county, cross-city, or cross-province coalitions. That 
is, I think, the best that they can do. So, I will leave it at 
that.
    Mr. Grob. Thank you very much.
    Other questions? Yes, sir?
    Audience Participant. [Inaudible]--from Human Rights--I 
have a question about the----[inaudible].
    Mr. Grob. Thank you for those remarks.
    Any other questions, comments from the audience?
    Audience Participant. A question for Mr. Gutmann. 
[Inaudible.]
    Mr. Gutmann. I certainly take James Tong's point that there 
is, over time, less official Chinese recognition of Falun Gong 
as a problem. I think that has some basis. I mean, if I were 
saying that there were a million in detention in 2004, it might 
well be half a million now.
    But last I checked--and I was still doing interviews on 
this in 2008, interviewing people who were fresh out of labor 
camp, fresh out of the laogai --they were not reporting any 
kind of decrease in the prison population, the laogai system 
population overall. Now, you might say, well, these are 
refugees, and so on. Maybe, but I wasn't pushing them for that 
answer.
    I'm asking them the same questions. I'm going round the 
question a different way, but I'm coming back to the same 
point: How many of your people were in your cell block? How 
many other kinds of people were in your cell block? It might 
take a day before I'd even approach that question, just to get 
to the point where they were relaxed enough to just answer it 
casually, which is what I'm after. And from those responses, I 
do not sense a major decrease in Falun Gong populations.
    I think your point is well taken. Falun Gong has pointed to 
the Beijing roundups, the Shanghai roundups before the Olympics 
and other events--events that get a lot of press. But frankly, 
most of the prisoners are coming out of the provinces. They're 
not coming out of Shanghai and Beijing. That's where the big 
numbers are, and those numbers are fairly unchanging.
    Mr. Grob. Thank you very much.
    Other questions? Yes, in the back.
    Audience Participant. [Inaudible.]
    Mr. Grob. Professor Tong, then Mr. Shan.
    Mr. Tong. Indeed, that is happening. So Mr. Grob earlier 
made reference to the rule of law. You cannot have rule of law 
that would promulgate specific and arbitrary legislation, for 
manufacturers and consumers, or for individual entrepreneurs 
and for foreign investors, but denying it to the religious 
communities--you cannot protect the economic interests and 
assets of the accountholders of the Shanghai and Shenzhen Stock 
Exchanges, but denying it to religious groups, and not 
protecting their economic interests.
    Now religious personnel can collect fees for performing 
religious functions. Religious organizations can collect 
donations from both individuals and corporations both 
domestically and also internationally. One of the reasons is 
that if they allow non-government organizations like those in 
Legal Aid, women's groups, the disabled, and environmental 
protection, to receive gifts, both from individuals and 
corporations, both domestically as well as from international 
organizations, they cannot deny religious communities from 
receiving it.
    This is also what is happening. The rule of law cannot 
discriminate. This is what is happening to the religious 
communities as well. This is why I say that the religious 
policy is the collateral beneficiary of market reforms. So 
today, in the past 10 years, every year, there were over 100 
Protestant and Roman Catholic priests, nuns, and seminarians 
that are in the United States. Right now there are 300 Roman 
Catholic priests and seminarians in the Philippines alone. 
There are Roman Catholic priests that serve as chaplains in top 
universities in China. There are Roman Catholic priests 
teaching philosophy in top universities in China. There is a 
Roman Catholic priest, a foreigner, who serves as the director 
of a leprosy sanitarium in China. In these areas, China has 
relaxed its religious policy.
    Even for the five official religions--the State 
Administration of Religious Affairs has established a sixth 
division. It used to be just the five divisions each for an 
official religion. They have established a sixth division for 
the other unofficial religions. In some provinces the Eastern 
Orthodox religion is now an official religion. In some 
provinces, some folk religions are also officially recognized.
    Mr. Grob. Thank you, Professor Tong.
    Mr. Shan, would you like to add?
    Mr. Shan. Yes. I think the Chinese Government is open to 
economics. They have developed a strong national capitalist 
system which is different from Western capitalism. As that lady 
mentioned, when we talk about, is it possible that the Chinese 
can give much more room to religion as economics; first we need 
to consider the feature of the government, the Communist 
system.
    So, I mean, the Chinese Government, the open market for 
economics; it's basically something that's not new. Before the 
Communist Party took over China, in all of China's history, 
China has been a free market country, or nation. But yet, every 
Chinese Government is sensitive to any religions or spiritual 
movements who touch politics. ``Touch politics'' means trying 
to use spiritual or religious ideas to justify or to deny the 
rulings of the government.
    So though they even allow some freedom through a series of 
religious systems and policies, they are still very careful 
with those religions, especially toward religion called 
monotheist religions: Islam, Christianity, and Catholicism. 
These monotheist religions are really powerful. They have 
played important roles in the whole world's history, so the 
Chinese Government knows that, even without the lessons from 
Eastern Europe. The Chinese Government and the Communist Party 
will continue to suppress or restrict those religions.
    Mr. Grob. Thank you.
    Ms. Cook?
    Ms. Cook. The term that Professor Tong used about managing 
is really very relevant, because what you see the Communist 
Party doing, is that there is this divide-and-conquer strategy, 
this fragmentation of issues, and this idea that in order to 
maintain overall control you don't necessarily have to control 
everything. So what you can see is that maybe certain groups 
will be allowed to be in this legal gray zone, while other 
groups will be subjected to horrific and systematic campaigns.
    I think my underlying point was that you have a dynamic 
that is arbitrary, and that can change at any time. In my 
personal opinion, looking at some of the dynamics related to 
the house church movement now, there are some worrying signs--I 
obviously very much hope it does not go in the direction of 
what has happened to Falun Gong practitioners--but there are a 
lot of similarities to what the dynamics were surrounding Falun 
Gong in the late 1990s, even just in terms of the sheer number 
of believers.
    Also, it is interesting, this question of whether people 
view themselves as political, because whether you talk to Falun 
Gong practitioners or you talk to petitioners who are trying to 
protest some kind of injustice, they often, at least initially, 
wouldn't necessarily see their actions as being political.
    They see their appeals as being an effort to address some 
kind of grievance that they've encountered personally. In the 
case of Falun Gong practitioners, there was the appeal on April 
25--and Ethan can talk about this, if we have a moment for him 
to talk about his version of events. Or, if you have a chance 
to read his article, it really is fascinating in terms of the 
description of his account of what happened on April 25.
    Falun Gong practitioners weren't necessarily there to ask 
for an overthrow of the Chinese Government. They were there 
because they wanted to try to register as a group, because they 
previously tried to register repeatedly and weren't allowed; 
they were there to ask for the release of people who had been 
arrested, as Ethan described, in Tianjin; and they were there 
to ask that the books of their spiritual teachings that had 
been banned be allowed to be published again. That's very 
similar to the requests you see petitioners coming to Beijing 
over--because they've been evicted from their home, or their 
child died in the earthquake in Sichuan Province and they want 
some kind of compensation.
    So it's interesting because you see this process that a lot 
of individuals are going through, where it starts like that, 
where they just have a grievance that relates to something in 
their personal life that they don't at all think of as 
political, but as they start to encounter the system and 
encounter the intolerance of the system vis-a-vis their efforts 
to find justice for this grievance, that's when you see people 
starting to question the authority of the Party.
    If you talk to Falun Gong practitioners now, they'll still 
say, ``Oh, no, we're not political.'' They'll explain it in the 
sense that ``We don't want any political power, we don't want 
to replace the Communist Party.'' But there is a sense that so 
long as the Communist Party is in power it's going to be very 
difficult for Falun Gong practitioners to have full freedom of 
religion. There are real difficulties there in terms of what 
you might do upon coming to that conclusion.
    I think the only other quick point I wanted to make is that 
there is also an economic dimension to the persecution. That 
relates to the incentive systems, where you see, even at very 
low levels, notices on official Web sites offering rewards to 
members of the public who will turn in a Falun Gong 
practitioner who they notice putting up a posting.
    This defector Ethan mentioned who had come from the 6-10 
Office and whose media interviews I've read talks about rewards 
for people who transform Falun Gong practitioners. Other 
evidence points to quotas for the number of transformed Falun 
Gong practitioners and promotions being determined based on 
that.
    So one of the things that you see is that these incentive 
systems almost take on a life of their own. That's clearly an 
element in some of these issues related to organ transplants, 
in terms of the creation of a market and the incentives that 
that creates.
    That economic dimension is something to think about. It's 
something you see in other areas of Chinese society in terms of 
the way the Communist Party manages its control. You see that 
with censorship, as a certain commercialization of censorship 
where the risk that newspapers face, that Internet companies 
face if they transgress political directives that are handed 
down by the Party are not just political punishments. It is not 
just that you're going to be fired, it's that your business 
could be shut down and that there are very real economic 
implications to that.
    So one ends up with these economic incentives that actually 
drive some of the political repression that we're seeing, and 
that's part of the sophistication and the difference, perhaps, 
between the China that we see today and the Soviet Union during 
the Cold War. So, I'll just end there. I know that was a bit of 
a long comment, but I hope that's helpful.
    Mr. Grob. Thank you very much, Sarah.
    Ethan, did you want to jump in?
    Mr. Gutmann. Just very briefly. Minister X--I can't give 
his name--was a financial minister at the provincial level and 
he described Party meetings in 1998 and early 1999. The 
explanation given for eliminating Falun Gong was really simple. 
It was just that Jiang Zemin had a problem. Tiananmen Square 
would not go away. It interfered with his legitimacy. They had 
to have a new target. It was that simple.
    I'm not saying that's the ultimate explanation and I'm not 
saying it's a perfect explanation, but inside the Party, that 
was the explanation. One of the tensions you feel on this panel 
about the overall subject is this: Is the Falun Gong crackdown 
indicative of how China is handling religious affairs? It's not 
clear. There are some ambiguities there. The Falun Gong 
crackdown, in some ways, can be seen as a stand-alone.
    Yet I hate to use Chinese proverbs here, but you kill the 
chicken to scare the monkey, or if you like, a Western proverb 
from the New York Review of Books--the anaconda in the 
chandelier. The proverbs mean much the same thing, which is 
that they are setting an example. They are making it very clear 
that there are parameters. And you don't know when the anaconda 
is going to come down, and you don't know when the chicken is 
going to be slaughtered. That condition applies to religious 
believers and it applies to just about every other group in 
China as well.
    Mr. Grob. Thank you very much. We are over time. That was 
somewhat discretionary on my part. The problem with having four 
eloquent and knowledgeable panelists together with a collection 
of eloquent and knowledgeable members of the audience, is it 
makes my job as time-keeping taskmaster much more difficult.
    So I'd like to wrap it up and just ask one last time if any 
of our panelists have a 15-second final thought that they would 
like to add.
    Ms. Cook. I do.
    Mr. Grob. Please.
    Ms. Cook. I thought somebody in the audience might ask the 
question, well, what do we do about this? So I was trying to 
think about what might be some of the recommendations I could 
offer. I think there are a few things that might be worth 
keeping in mind, though these maybe touch a little bit more on 
the micro level than the macro level.
    One recommendation relates to international attention to 
individual cases and the difference that it makes. Really, Gao 
Zhisheng would not be alive, and there are many other former 
prisoners of conscience that I have spoken to who would not be 
alive today, if it had not been for the international attention 
to their cases. As badly as Gao was treated, I think they would 
have treated him even worse if they knew that they could just 
make him disappear and no one would ask any questions.
    Of course, that is the problem for some of the anonymous 
Falun Gong practitioners who may have had their organs 
harvested. So, I think that's one thing to just keep in mind, 
that the advocacy for individual cases really makes a 
difference.
    Another thing in terms of perhaps U.S. Government policy is 
that one of the real difficulties when dealing with an issue 
like this--and it's amazing to be able to get a panel like this 
to take place--but this really is a topic that, because of the 
sensitivity of the Communist Party, there's very little good 
research on it. It's something we encounter in doing our 
research. So, my recommendation would be to try to find a way 
to fund really detailed assessments of individual cases. So how 
do you verify individual cases?
    In some ways, the lawyers can be a channel for that because 
you can find ways in which the lawyers can maybe anonymously be 
able to talk about what happened to their clients--who has 
actually been imprisoned, for how many years in a way that 
might be possible to verify or cross-reference with some of the 
reports coming from ChinaAid on Christians or from the Falun 
Dafa Information Center on Falun Gong.
    The last thing I would say is just that the things also 
happen outside of China. I could talk a whole lot--I'm sure 
Ethan could, too, and others here as well--about the lengths 
the Communist Party goes to outside of China to try to censor 
conversations like the one we're having here, whether it's 
about this topic or it's about the Uyghurs, or it's about 
Tibetans, or it's about any other topic that the Communist 
Party finds sensitive. It's amazing how many incidents there 
are of events that have been planned and at the last minute get 
called off. So from that perspective, I really do commend the 
CECC for holding this panel.
    So, for anybody who engages in these kinds of issues or 
comes across this, one of the experiences I have seen is that 
you can call the Communist Party's bluff. So when that call 
comes from the Chinese official saying, ``Oh, you know, don't 
hold this event,'' then you can call their bluff. There also 
have been cases where such incidents went to court, and courts 
in Israel and Taiwan ruled that Falun Gong practitioners should 
be able to exercise their right to free expression.
    So I'll just end on that note. Maybe other people on the 
panel have thoughts, but I felt this would perhaps be a 
slightly more optimistic way of ending the discussion. That 
way, we're not just thinking in terms of ``Oh, my gosh, look at 
these terrible things that are happening in China,'' but also 
in terms of what we can do about it sitting over here.
    Mr. Grob. Thank you very much.
    Any others?
    Mr. Gutmann. Since Copenhagen, the Obama Administration has 
done pretty close to a 180-degree turn on China. The State 
Department is seriously considering giving the Global Internet 
Freedom Consortium money. We don't know if the press reports 
are totally accurate, but this is very significant, a big 
change. Frankly, I believe that for all these causes, but 
particularly for religious causes--and I'm not just talking 
about Falun Gong here--a free Internet is essential.
    If my small voice can make any difference in encouraging 
this development, hopefully it'll move through. We really are 
seeing a concerted effort to overcome the Big Brother 
Internet--not just temporarily, not just in China, but as a 
template for the world.
    Mr. Grob. Thank you very much, Ethan.
    Professor Tong?
    Mr. Tong. This year is the 500th anniversary of the death 
of Mateo Ricci, one of the first Roman Catholic missionaries 
who entered China. I think the lesson from all of this is this: 
for spiritual religious movements that want to spread and grow 
inside China, one should think about strategy. Then, in the 
Catholic church, the question they were faced with was whether 
they would insist on doctrinal purity, that is, outside the 
church no salvation, and also ancestral worship in China as 
well, because the Roman Catholic church forbade it.
    But for Ricci and fellow missionaries, this was less of an 
issue as finding the right strategy. There are certain things 
that need to be emphasized, there are certain things that need 
not. It could also be the case that you are wrong, your 
doctrine could be wrong. So for Ricci, who waited 16 years just 
to find an audience with the Chinese Emperor, he waited. He did 
not insist on these doctrines. Finally, many colleagues of his 
Jesuit order found employment in the court. So the question is, 
one needs to find common ground and what is possible and what 
is not possible under the existing circumstances in China. That 
is, I think, worth considering.
    Mr. Grob. Thank you very much, Professor Tong.
    Mr. Shan, would you like to have the last word?
    Mr. Shan. Yes. Thank you. I think, related to Sarah's 
comment, what should we do to improve the situation of 
religious freedom in China, I think of course we should be 
optimistic in our wish and desires, but I would think that we 
should have a practical method or agenda to do that. We will 
say, okay, once China becomes a democratic country, it will 
solve the problems. That is true. But actually, from a 
sociology perspective, we know in Western countries, especially 
in Europe, how democracies came out. It was based on the 
citizen country built first, which means that citizenship 
should be first founded and established in a country according 
to law, then the next step would be democracy.
    So China is still not a real citizen society. But if you 
become a citizen society first, even without democracy, 
religious freedom, except political freedom, will be improved, 
like Taiwan, before their democracy, and Singapore was a 
dictatorship country, but they all allow religious freedom 
because they are a citizen society. A citizen society feature 
would be fourfold: you have civil rights, social rights, 
political rights, and religious rights. So I think that's 
something we should put effort in for the first step.
    Mr. Grob. Well, thank you very much.
    This month marks the 47th anniversary of the famous civil 
rights address by President Kennedy in which he quite notably 
said that, ``The rights of every man are diminished when the 
rights of one man are threatened.'' It is in that spirit that 
we address this issue.
    The entire transcript of this proceeding, including 
statements submitted by our panelists for the record, and the 
discussion here today will be published and available online 
through our Web site and in hard copy. We look forward to the 
continuation of this discussion on this important topic.
    With that, thank you to our panelists. Thank you in the 
audience. This roundtable is adjourned. [Applause.]
    [Whereupon, at 3:58 p.m. the roundtable was adjourned.]


                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                    Prepared Statement of James Tong

                             JUNE 18, 2010

    Thanks you for inviting me to participate in this roundtable. My 
remarks will focus on three issues. The first is how the Chinese 
Government views the level of political and security threat the Falun 
Gong presents in recent years. The second is what type of Falun Gong 
practitioners and their activities the Chinese Government considered 
illegal and unacceptable, and ground for legal sanction. The third are 
the implications for the Chinese Government positions on religious 
freedom at large.

      I. THE DIMINISHED SECURITY THREAT OF THE FALUN GONG IN CHINA

    Last July was the 10th anniversary of the banning of the Falun Gong 
in China. In the past decade, the Chinese state has been effective in 
suppressing the public forms of the organized activities of the Falun 
Gong. Before the imposition of the ban on July 22, 1999, there were 
between 2.3 to 80 million practitioners of the Falun Gong. They were 
organized into 39 main stations, 1,900 guidance stations, and 28,000 
practice sites. Every morning, these assemblies of Falun Gong 
practitioners conducted breathing exercises in city parks and town 
squares. They also gathered in special convocations in sports arenas 
and auditoriums on special anniversaries. There were also training 
sessions lasting 3-4 days where practitioners learnt more advanced 
breathing exercise, meditation techniques and Falun Gong doctrine. 
Since July 22, 1999, these three forms of organized activities (morning 
assemblies, large convocations, training seminars) can no longer be 
seen in public. All known Falun Gong organizations (main stations, 
guidance stations, practice sites) are duly registered and the 
assemblies disbanded. Their leaders were arrested, went into hiding or 
self-exile. The rank and file practitioners were registered, and 
required to write severance papers where they declared their official 
withdrawal from the Falun Gong. Its publications met a similar fate. 
Before the official ban, the Falun Gong published 11 titles. Total 
distribution of these publications by the Beijing head office (Falun 
Dafa Research Society) was over 11 million copies. As part of the ban, 
all copies of these Falun Gong publications were seized, their existing 
stock confiscated. On the 7th day of the ban (July 29), mass rallies 
were held in 17 major cities where these publications were set ablaze 
or turned into paper pulp. In sum, these organized activities of the 
Falun Gong, as well as their publications enterprise, did not outlive 
the official ban on the Falun Gong imposed on July 22, 1999.
    There are still periodic reports in official media on arrests of 
Falun Gong practitioners for staging protests in provincial and 
national capitals, sabotaging media broadcasts, displaying Falungong 
banners in public places, but these acts of overt defiance have become 
rare in recent years. These can be seen in three developments. The 
first is the annual report of the Chief Procurator (the equivalent of 
the Attorney-General), which enumerates the major law-enforcement 
problems in China in the given year. From 1999-2003, the Falun Gong was 
listed as a major law-enforcement problem nation-wide. But from 2004 
on, it was dropped from the list. Below the national level, each of the 
31 provinces also issues its annual procuracy report, and these largely 
mirror the national trend. From 1999 to 2001, a great majority of the 
31 provinces (29 in 1999, 28 in 2000, 21 in 2001) list the Falun Gong 
as a major law-enforcement problem in their province. But from 2004 to 
2008, there was a monotonic decline from 7 in 2004 to 2 in 2008.
    The second related development is the absence of followup campaigns 
to consolidate the gains of the crackdown and to mop up Falun Gong 
remnants and resurgent elements. After the initial nationwide 
blitzkrieg in late July, 1999, a four-month nation-wide Strike at the 
Falun Gong campaign was launched in summer, 2001, to ferret out 
fugitive Falun Gong leaders, underground Falun Gong hide-outs, 
inventories of Falun Gong publications they had missed in the first 
security-round-up. For some Falun Gong strongholds, local law-
enforcement agencies conducted single-day campaigns every quarter, or 
on Falun Gong special occasions. Other localities organized sustained 
100-day campaigns to systematically check all printing shops, 
photocopying vendors, Internet cafes and rental properties for 
suspicious Falun Gong activities. From 2003-2008, no such followup 
campaign aimed at crushing the Falun Gong has been reported.
    The third related development was the re-reorganization of the 
special law-enforcement agency that deals with the Falun Gong. To 
prepare for the crackdown, a special agency called the ``June 10'' 
Office was established at both the central, provincial, and municipal 
levels, and even within universities and large state-owned enterprises, 
with the exclusive mission to organize, manage and coordinate the 
business of arresting, registering, detaining, interrogating Falun Gong 
practitioners, and dissolving Falun Gong organizations. As the name 
suggests, most were established on June 10, or 40 days before the 
crackdown on July 22, 1999. Their full office titles were ``the Office 
dealing with the Falun Gong'' or the ``Office dealing with the problem 
of Cults.'' After April 2002, close to three years after the crackdown, 
most of these offices were renamed ``Offices to maintain social 
stability.'' Their mission was broadened to encompass other serious 
sources of social stability in the locality, including the protests of 
laid-off workers, those who have lost their pensions, peasants evicted 
from their land by real-estate developers, tenants with disputes 
against landlords in housing projects. In combination, such absence of 
followup campaigns, the lack of reference to the Falun Gong as a local 
serious security problem in national and provincial procuracy reports, 
the reorganization of the June Offices to deal with other local 
security issues, suggest that the Falun Gong has ceased to be a serious 
political threat and security problem for the regime since 2003 or 2004 
to 2008, both at the national and provincial levels.

    II. DIFFERENTIATION OF OFFENCES BY AND SANCTIONS OF FALUN GONG 
                             PRACTITIONERS

    Next, I want to address the question of what type of Falun Gong 
practitioners and what type of offences warranted regime sanction. Let 
me begin with the simple fact that there was wide-ranging estimates of 
the number of Falun Gong practitioners in July 1999 before the official 
crackdown. The estimate varies because there is no clear definition of 
what is a Falun Gong practitioner. Unlike Christians, there is no rite 
of formal induction into the religious community. Falun Gong 
organizations also did not keep a roster of its practitioners. Even at 
the conservative low-end estimate of 2.3 million, mass detention and 
incarceration of Falun Gong practitioners was out of the question. 2.3 
million is 4 times the total population of Washington DC. Even for an 
authoritarian state, the Chinese judicial system lacked the capacity to 
process 2.3 million cases. There were not enough judges and prosecutors 
to prosecute, indict, convict and sentence 2.3 million cases, public 
security agents to enforce coercive detention, and the prison and labor 
reform systems to house them. In 1998, the year before the crackdown, 
the total number of criminal cases prosecuted in Chinese courts was 
400,000, and total number of defendants was under 600,000. These 
include all cases--homicide, assault, robbery, fraud. At that rate, it 
would take the Chinese courts at least 4 years to process the 2.3 
million cases. If we use the smaller number of only cases pertaining to 
endangering state security, endangering social order, obstructing 
social order (the usual alleged crimes that Falun Gong practitioners 
were charged), the Chinese court system in 1998 processed under 74,000 
cases of such offences. At that rate, it would take them 31 years to 
clear the 2.3 million cases. Clearly, lacking the capacity to process 
all these cases, they need to differentiate among Falun Gong 
practitioners.
    On the same official notice announcing the ban issued on July 22, 
1999, Falun Gong practitioners were divided into four types. For the 
great majority, rank and file members, there would be no disciplinary 
action taken, provided they would sign a document renouncing the Falun 
Gong and withdrawing from the congregation, after which their names 
would be entered into a registry. Disciplinary action refers to 
dismissal or demotion from positions held in government agencies or 
enterprises, denial or reduction of staff benefits, expulsion from the 
Chinese Communist Party, and prosecution in case of alleged criminal 
offences. The triage applies to three types of core leaders. The first 
group were those who had participated in illegal activities--
participating in protest rallies and distributing Falun Gong 
publications on the official black list. If they would also renounce 
and withdraw from the Falun Gong, and provide an account of these 
activities, then no disciplinary action would be taken. The second type 
of core leaders were those who had committed serious errors, not only 
participating in, but facilitating protest rallies, not only 
distributing, but printing Falun Gong publications. If they would also 
renounce, withdraw from the Falun Gong, account for their activities, 
and in addition, provide a conscientious confession and self-
examination, and accrue merit (persuading other practitioners to 
confess, informing authorities where the hide-outs were, finger-
pointing other core leaders), then no disciplinary action would be 
taken. The third type is where the sanctions and disciplinary actions 
would be imposed. These were the core leaders who planned and organized 
``political turmoil,'' viz, protest rallies in front of party and 
government headquarters and other public places without permission, and 
who remained unrepentant (refusing to renounce or withdraw from the 
Falun Gong, not providing information about the Falun Gong activities 
and leaders), then they would be dismissed from the Party, or 
government post, sent to labor reform institutions, or prosecuted in 
trial if criminal laws were violated.

            III. IMPLICATIONS FOR RELIGIOUS FREEDOM IN CHINA

    The foregoing analysis suggests several implications for the larger 
issue of religious freedom in China. The first is religion is still a 
managed religion in China. The state claims the right to manage 
religion. It claims the authority to define what is religion and what 
is a cult, what is official religion and what is not official religion, 
what is normal religious activities and what are not. There are 
religious affairs bureau at the national, provincial, municipal, and at 
county levels in China. The state requires the mandatory registration 
of all religious organizations and religious venues, and approval of 
the publishing and distribution of the Christian Bible.
    Second, the capacity of the party-state to manage religion has been 
eroded by market economy. On the supply side, the market economy has 
created political space where heterodox spiritual movements can survive 
outside the control of the party-state. In the Maoist planned economy, 
where virtually the entire working population were employed in 
government owned enterprises, lived in public housing, 
relied on government issued ration-coupons to get their daily 
necessities, religious believers who defied state rule could find no 
job, no housing, no food, no clothing. With the establishment of 
private and foreign owned enterprises, the end of rationing and the 
creation of the housing market, religious believers do not have to 
choose between practicing their faith and their maintaining their 
livelihood.
    On the demand side, 30 years of the market economy has fostered 
other social issues that pose threats to the social order and that 
compete for administrative attention and action. The annual procuracy 
report lists a rising crime wave, manifested in organized crime, 
murder, robbery, kidnapping, drug trafficking as serious law-
enforcement problems. Aside from rising crime, the regime has to 
contend with another source of social instability. Market reform has 
created sources of social conflict that did not exist in the Maoist 
era--unemployed workers, those who lost their pensions because their 
companies went bankrupt, discharged soldiers who could not live on 
their meager severance pay, peasants evicted from their farms because 
the township secretary colluded with real-estate developer. In 1994, 
there were 10,000 of these collective protests with 50 or more 
participants. The number was increased to 74,000 in 2004, or more than 
200 incidents per day. In May 2004 alone, there were 2,180 collective 
protests each with 500 or more participants. With demonstrators in the 
street or outside their offices, these are much more urgent problems 
that the regime had to take care of. In comparison to organized and 
violent crime, or collective protests, religious congregations are much 
more tame, and it is not in the interest of the regime to drive them to 
the street to join other demonstrators.
    Third, a more benign religious policy is also the collateral 
beneficiary of market reforms. Before China launched its market 
reforms, there was convergence between its religious policy with the 
larger political, economic and social policies. China was a Communist 
state, subscribing to Communist ideology. Its 1973 Party Constitution 
states that the CCP is committed to the overthrow of capitalism and its 
replacement by the dictatorship of the proletariat. Its economic system 
was a centrally-planned, socialist economy, with no private ownership 
of means of production. There was no labor market and no capital 
market. In its social system, there was no civil society, no 
independent NGOs. Internationally, there was no foreign direct 
investments, nor foreign economic presence in China, and were few other 
links with the global community. There was a thus a close fit of its 
religious policy with other policies of a Leninist state--where the 
state had virtual total control over the economy and society, including 
religion. But with 30 years of market reform, there is increasing 
divergence between its religious policy with its political, economic 
and social policies. Politically, China has ceased to be a Communist 
state. Major Communist anniversaries, like the 150th anniversary of the 
publication of the Communist Manifesto, the 100th death anniversary of 
Karl Marx, the 90th anniversary of the Bolshevik Revolution, were not 
commemorated with a People's Daily editorial in post-reform China. In 
Orwellian fashion, the current version of the Party Constitution was 
changed to remove references to the overthrow of capitalism and the 
establishment of the dictatorship of the proletariat. Its economy is 
arguably a market economy, almost fully integrated with the global 
economy, with thriving labor and capital markets. There are now 150 
million investment account holders in the Shanghai and Shenzhen Stock 
exchange, while there are only 72 million CCP members. One can say that 
there are twice as many capitalists as communists in China today. 
Socially, there is an emerging civil society, with over 200,000 
registered social organizations, many are independent NGOs, some with 
international connections. There are thriving gay and lesbian 
communities in major cities, where open gay marriages are celebrated in 
downtown Beijing. Thus there is a increasing divergence between its 
political, economic and social policies with its religious policy, 
which is anachronistic, 
belonging the antiquated bygone Leninist era. Especially for a 
centralized, hierarchical system where first principles matter, China 
needs to reconcile its religious policy that is divergent with the more 
forward looking and progressive political, economic and social 
policies.
    And in some important ways, it has. At least since the promulgation 
of the New Regulations on Religious Affairs of March 2005 if not 
earlier, the Chinese regime has granted increasing institutional 
autonomy to religious organizations and circumscribed the authority of 
the state to manage religion. Religious organizations are no longer 
required to accept the leadership of the CCP, to pledge support of 
socialism and patriotism, as some earlier religious regulations 
stipulated. The onerous requirement for mandatory, annual re-
certification of religious venues was dropped. House fellowship 
Christians is allowed by a majority of provinces. The authority to 
certify religious personnel, to examine and admit candidates for 
religious schools, to determine the curriculum of seminaries, to 
appoint and dismiss prelates of religious venues, to set the number of 
religious personnel in religious venues and the number of religious 
venues in each locality, now rests with religious organizations and not 
with the local religious affairs bureaus. The economic interests of 
religious communities are protected. Religious personnel can collect 
fees for performing religious functions. Religious organizations can now 
receive donations from both individuals and corporations, and from both 
domestic and foreign individuals and institutions. They can also invest in income-generating property and collect rents. When religious property has to 
be relocated or demolished in eminent domain cases like highway 
constructions, they need to be compensated by fair market value that is 
independently appraised. In addition, religious organizations are not 
only permitted, but encouraged to engage in philanthropy and social 
welfare programs. Both the Protestant and Catholic churches now operate 
nursing homes, hundreds of clinics, plus mobile dental and 
ophthalmology units. The Catholic church has two leprosy sanatoriums. 
There are thriving YMCAs in major cities, offering athletic programs, 
vocation training courses, foreign language classes.
    Just as significant, Chinese Christian churches have developed 
vital links with the global church. Many foreign religious leaders, 
including American evangelicals, superiors of Roman Catholic male 
religious orders have visited China multiple times, celebrated mass, 
gave retreats, and held conferences. Beyond visits, many faculty from 
Protestant and Catholic divinity schools in Europe, Canada and the 
United States have also taught in Protestant and Catholic seminaries in 
China. Outside seminaries, there are foreign Catholic priests who serve 
as a director of a leprosy sanatorium, chaplains in Chinese 
universities for American and European exchange students, professors 
with long-term contracts teaching philosophy and foreign languages in 
top Chinese universities. Conversely, hundreds of protestant and 
Catholic priests, nuns and seminaries have enrolled in degree programs 
in European, Canadian and U.S. divinity schools, after applying for and 
were granted exit visas and Chinese passports as religious personnel. 
One U.S. Catholic male religious order has sponsored over a hundred 
Chinese Catholic priests, nuns and seminarians to study in U.S. 
theologates. Upon completion of their European and North American 
divinity studies, some Chinese Christians now hold important positions 
in the church hierarchy. The present dean of the national Union 
Theological Protestant Seminary in Nanjing has a doctorate degree in 
divinity in Stockholm. The Seminary will have a new campus on 33 acres 
granted by the government, with a construction cost of 140 million 
yuan, some of it as grant or loan by the government.
    To conclude, there is still no religious freedom in China of the 
kind as in the United States. The state still manages, monitors, and 
often intervenes in affairs of religious organizations. Outside the 
five official religions, the fate is worse. Unregistered temples and 
churches have been demolished, their property and publications 
confiscated, their prelates jailed. But compared to that of the Maoist 
era, or even of the past two decades, there has been conspicuous and 
substantial progress. Whether one views the degree of institutional 
autonomy of religious organizations, the protection of their economic 
interests, their ability to operate social welfare programs, and their 
freedom to foster links with their universal community, there are 
positive developments in all these fronts, some unprecedented in the 
history of the People's Republic. There are increasing signs that 
religious policy is converging with the political, economic, and social 
policies of the market reform era in China.
    Thank you.
                                 ______
                                 

                  Prepared Statement of Ethan Gutmann


                             JUNE 18, 2010

    I want to thank the CECC, but my remarks need to go beyond the pro-
forma on this point.
    The Chinese Communist Party portrays Falun Gong as an evil cult and 
a terrorist entity. The Chinese State's diplomatic arm has made it 
clear that the Falun Gong issue is non-negotiable. It is relevant that 
this appears to be the first U.S. Government hearing or roundtable 
directly focusing on Falun Gong in a decade.
    As a former Beijing business consultant, I do not rely on Chinese 
official statistics. For example, if you attempt to generate a 
population figure for the laogai 
system--labor camps, prisons, black jails, detention centers, and 
psychiatric hospitals--you get a figure well below a million. Yet if 
one counts every detention node and make common-sense estimates, as the 
Laogai Foundation researchers do every year, you get a more credible 
figure of 3 to 5 million.
    According to the UN rapporteur on torture, Falun Gong comprises 
half of those prisoners, but this figure might be high. Much of my 
research is based on interviews with refugees and defectors. I don't 
ask them for estimates of the laogai system, but no matter how 
traumatized they are, I do expect them to remember how many Falun Gong 
were in their cell-block. After interviewing over 120 individuals, 
including defectors from inside Chinese security and well over 50 
laogai refugees, I estimate that Falun Gong comprises between 15 to 20 
percent of the laogai system. That's about half a million to a million 
Falun Gong in detention on average, representing the largest Chinese 
Security action since the Maoist period.
    We often perceive Chinese human rights problems as an entrenched 
structure. But the Party's campaign against Falun Gong more closely 
resembles a blitzkrieg, in an increasingly global war, marked by 
physical assaults in the United States, Chinese operatives posing as 
refugees, and coordinated hacking of Chinese dissident networks and 
U.S. Government entities.
    We should understand how the war began, the casualty rates, and the 
stakes of our neutrality. So I thank the CECC--and especially Toy 
Reid--for making this roundtable a reality.
    I was in Beijing on July 20, 1999, when the official crackdown 
began and sound-trucks flooded the streets. Western reporters flooded 
the zone, but with little 
cooperation from either the Party or Falun Gong, journalists had 
trouble simply penciling in the first question of any news report: What 
is Falun Gong?
    Falun Gong, simply put, is a Buddhist revival movement: moral 
passion, occasional talk of miracles, are-you-running-with-me-Master-Li 
individualism, and a reflexive mistrust of establishments and outsider 
agendas.
    The Buddhist aspect may be unfamiliar and exotic, but, as Arthur 
Waldron puts it: ``. . . anyone who knows Asian religion will instantly 
see that Falun Gong fits into a tradition that extends back before the 
beginning of recorded history.'' What made Falun Gong stand out from 
other qigong exercises and meditation practices was a moral system--
compassion, truthfulness, and forbearance--unmistakably Buddhist in 
origin.
    The revivalist aspect helps explain why Falun Gong insist on being 
called ``practitioners,'' rather than ``followers.'' Actually, they 
don't follow well. Ask 10 Falun Gong practitioners for a definition of 
Falun Gong, and you will get 10 different answers and 10 days of heated 
discussions. Yet it was that same do-it-yourself mentality that allowed 
Falun Gong to attract 70 million practitioners and skip over the 
barriers of Chinese society: class, education, rural/urban, civilian/
military, and Party membership.
    Go back to 1995, and follow a diminutive old woman around Yuyuantan 
Park in West Beijing. Ding Jing was a Falun Gong coordinator, meaning 
she taught the exercises, and kept practice sites clean. Among the 
sites were three locations: One catered to employees from China Central 
Television; two, the Xinhua News Agency; the third--very well-
attended--attracted Party officials, their wives, and employees of the 
Public Security Bureau. From a Marxist perspective, which venerates the 
seizure of power using the same template, Ding's tidy practice sites 
represented something terrifying. In 1996, Zhuan Falun, in essence, the 
Falun Gong bible, was taken out of print.
    Given the amorphous floating world in which they traveled--a world 
without membership lists, central authority or hierarchy--practitioners 
didn't panic. But Luo Gan, the head of the Public Security Bureau, 
began to use Falun Gong's perceived infiltration of his own department 
to gather, report, and study. Where no hierarchy existed, the Party, 
seizing on small clues such as Jing's phone calls to other 
practitioners, would map one. Where no political objectives existed, 
the Party would create them.
    Until 1997, the Chinese media stayed neutral. Local Party leaders 
would show up at Falun Dafa day rallies, and chuck little children on 
the chin while the cameras rolled. Now critical language began to 
appear in the Party-controlled media--flares in the night sky 
indicating that the Party was trying something out.
    Falun Gong had a method to handle this. Show up en masse. Stay 
silent. Then stand around until someone talks to you. The technique 
smoothly reversed various negative reports--articles in 1997, a Beijing 
TV segment in 1998.
    In Tianjin 1999, it failed. I've made my article ``An Occurrence on 
Fuyou Street'' available. Employing interviews from both sides, it 
tracks the events from Tianjin on April 22 to Beijing on April 25. 
Essentially, the demonstration was a set-up. From the portable 
surveillance cameras on Fuyou Street, to the armed military unit at the 
Forbidden City, it was a Party bait-and-switch to create momentum for a 
State-level crackdown.
    A former district-level official, ``Minister X,'' recalls that the 
Party's decision to eliminate Falun Gong circulated internally long 
before any public ban, and he was told to stop granting business 
licenses to practitioners. A Falun Gong source saw a similar communique 
at Qinghua University in 1998. A former official of the 6-10 Office, 
the secret agency created to eliminate Falun Gong, noting the level of 
detail in practitioner files, believes that operations must have begun 
by 1998.
    Without understanding the initial integration of Falun Gong into 
the Party, and the Party's initiative in starting the war--essentially 
creating the dilemma that threatens them today--one cannot understand 
the ineffectiveness of the Falun Gong response. Practitioners wanted to 
believe that it was a misunderstanding. So appearances at the petition 
office and signed letters were followed by mass detentions and the 
first deaths in custody.
    Beginning in 2000, based on the safe house occupancy in Beijing, I 
estimate that well over 150,000 practitioners made their way to 
Tiananmen Square to protest over a year's time. Collectively, a 
remarkable number, but they trickled in at 500 to 1,000 per day, and 
they stood up and unfurled their banners according to the dictates of 
their soul rather than any preconceived strategy. Would a mass strategy 
have even been possible? I have provided another article, ``Hacker 
Nation,'' on 6-10 surveillance:

          Before 1999, Falun Gong practitioners hadn't systematically 
        used the Internet as an organizing tool. But now that they were 
        isolated, fragmented and searching for a way to organize and 
        change government policy, they jumped online, employing code-
        words, avoiding specifics, communicating in short bursts. But 
        like a cat listening to mice squeak in a pitch black house, the 
        ``Internet Spying'' Section of the 6-10 Office could find their 
        exact location, having developed the ability to search and spy 
        as a result of . . . a joint venture between the Shandong 
        province public security bureau and Cisco Systems.

    Following capture and initial interrogation under the 6-10 Office, 
the laogai system then operated to break the will and ``transform'' the 
practitioner, culminating with a public renunciation of Falun Gong. But 
it was within the laogai itself that the first effective resistance 
began.
    Wang Yuzhi was a tough, successful Beijing businesswoman. When the 
crackdown started she transformed her office into a secret Falun Gong 
printing press. It was broken up, her assets were seized, Wang ran, and 
was eventually caught.
    The low-ball casualty figure of over 3,000 practitioners who have 
died by torture is reasonably well-documented. Some practitioners 
simply refused to renounce their belief; others hoped that overcrowded 
prisons might contribute to the end of the persecution. Others wanted 
to set an example to fellow inmates.
    But Wang made it personal--so personal that some of the guards 
force-feeding her began wearing paper bag masks so she couldn't 
identify them. It became a chess game between the practitioner and the 
torturers. Both sides knew that Wang's screams of rage were legendary 
throughout the laogai , with rumors seeping out to practitioners 
scattered throughout the world. Both sides knew that checkmate--
actually killing Wang--would leave a pyrrhic victory for the state.
    The underlying ambiguity of the laogai position was expressed in 
the following local maneuver: Rather than writing up a report of 
transformation failure, or the euphemism ``death by suicide,'' many 
labor camps and psychiatric centers would wait until the torture 
reached lethal levels, and then suddenly free the dying practitioner--
especially after the so-called Tiananmen ``self-immolation'' and the 
Changchun television hijacking (and I welcome questions on those 
incidents).
    But Wang Yuzhi lived. Considered terminal on release, she fled 
China, and went on to purchase printing presses for the Epoch Times. 
Today she will smile at you with her one good eye. This is the face of 
insurgency, and to such a face, the Party turned to a more permanent 
solution.
    The final article that I have made available, ``China's Gruesome 
Organ Harvest,'' documents a pattern of retail-organs-only physical 
examinations carried out throughout the laogai system. I can find no 
rational medical explanation for the procedures, and I conclude that 
the commercial harvesting of Falun Gong is real. That finding has been 
confirmed by a Taiwanese surgeon who arranges transplants in China.
    One addition: While the Bush Administration's consistent focus on 
House Christians may have had a Schindler's List effect, inhibiting 
widespread harvesting of Christians, members of one sect, Eastern 
Lightning, were examined for harvesting. According to interviews by my 
colleague Jaya Gibson, so were some Tibetan prisoners. Yet harvesting 
of political and religious prisoners probably began in Xinjiang. A 
Uyghur policeman witnessed preparation for a procedure in 1994, and I 
recently interviewed a Uyghur surgeon who, in 1995, was ordered to take 
his medical team into the outskirts of Urumqi and remove a prisoner's 
organs while the heart was still beating.
    Perhaps harvesting began as a purely black-market operation. But 
ultimately prisoners who would not transform--the Wang Yuzhi types--
became too dangerous to release. But the Party had an outlet, the organ 
tourists of Japan, Europe, and the United States.
    Now the fact that China is the one currently pulling the reins up 
on Western organ tourism highlights Falun Gong's stunning lack of 
success in making its case in the United States. For many in the Bush 
administration, it took one outburst from Wang Wenyi on the White House 
Lawn to establish that Falun Gong could not be reliable allies. For 
many Democrats, it took one Chinese-planted Wikipedia reference 
alleging Falun Gong was anti-gay to ward off sympathy (Falun Gong 
teachings on this point are essentially indistinguishable from 
traditional Christianity, Judaism, Islam, and Buddhism).
    Practitioners in the West simultaneously watch two screens, a 
Western one and a Chinese one. But for them, China is always the 
default--and fear of the Party's manipulative abilities runs deep. 
Hence we see the definitional problems, the alienating public torture 
displays and Daoist demarcations of good and evil--again, aimed at the 
mainland.
    But Falun Gong's tunnel vision created one unprecedented success. 
Along with the construction of the greatest dissident media apparatus 
in modern Chinese history, a small group of Falun Gong engineers based 
out of a North Carolina suburb devised an Internet-lifeline to transmit 
information in and out of China. Along the way, they facilitated the 
only unblocked Internet transmissions out of Iran during the aborted 
Green Revolution.
    If the press is correct, the State Department is considering 
awarding these engineers (now known as the Global Internet Freedom 
Consortium), significant funding to do more. If my Falun Gong sources 
are correct, the Consortium is concerned about taking a sum too small 
to make a difference, in exchange for the inevitable Party propaganda 
point that they are U.S. agents.
    Yet the Party is pushing the two sides together. The State 
Department must end Chinese hacking by threatening China's Big Brother 
Internet. Falun Gong has perhaps a million in captivity. As much as 1 
out of 10 may have already been lost to the surgical knife.
    The answer to this dilemma will not be found in parsing Wikipedia. 
The question is no longer--What is Falun Gong? How do they define 
themselves? But rather--What are Falun Gong's actions? What has Falun 
Gong achieved? Against what sort of odds? And here, I believe the 
evidence of a decade--from the laogai to the North Carolina suburbs--
speaks for itself.
                                 ______
                                 

               Prepared Statement of Mark Chuanhang Shan

                             JUNE 18, 2010

    The roundtable host, the CECC, asks that ``what factors influence 
the Chinese Government's policies toward spiritual movements and drive 
its treatment of members of spiritual groups. The Chinese Government 
has allowed space for some spiritual movements to operate in China, but 
has banned other groups, such as Falun Gong. Why does the Chinese 
Government consider some spiritual movements a threat? ''
    The above questions touch the root of Chinese political-religious 
culture. Through an analysis on the origin of the traditional political 
concept of the Mandate of Heaven and its modern applications, and the 
case of severe persecution of the Christian lawyer Gao Zhisheng because 
of his defending the religious freedom of Falun Gong movement, we may 
gain more understanding of the rational of the current Chinese 
political-religious culture.

 I. ``THE MANDATE OF HEAVEN'' IN TRADITIONAL CHINESE POLITICAL IDEOLOGY

    When the Zhou king's advisors persuaded him to attack the Shang 
dynasty (1766-1045 B.C.) he refused saying, ``you do not know the 
Mandate of Heaven yet,'' but he launched the invasion after he heard 
Shang king did horrible things to his people as a tyrant because that 
showed the disapproval of Heaven of the Shang king, and Heaven began to 
support the Zhou king to replace the former.\1\
    After the conquest, the Zhou dynasty (1045-256 B.C.) issued a 
number of proclamations, preserved in the Classic of Documents, 
persuading the Shang people to submit to their conquerors in the name 
of Mandate of Heaven. Zhou rulers argued that:

          Heaven, charged certain good men with rulership over the 
        lineages of the world, and the heirs of these men might 
        continue to exercise the Heaven-sanctioned power for as long as 
        they carried out their religious and administrative duties with 
        piety, rightness, and wisdom. But if the worth of the ruling 
        family declined, if the rulers turned their backs upon the 
        spirits and abandoned the virtuous ways that had originally 
        marked them as worthy of the mandate to rule, then Heaven might 
        discard them to elect a new family or lineage to be the 
        destined rulers of the world.\2\

    The later historians such as Sima Qian and thinkers such as 
Confucius and Mozi interpreted the Mandate of Heaven as a justification 
to overthrow evil rulers and start a new dynasty.\3\ Therefore, the 
concept proved to have lasting influence and fit neatly into the later 
scheme of the Chinese dynastic cycles, ``because it justified all 
successful overthrows just as it justified all dynasties that clung to 
power.'' \4\ In this theoretical frame, many historical events are 
judged as the outcome of Divine favor or disfavor including natural 
signs and disasters.\5\
    In Chinese history, the emperors may hold different religious 
faiths personally, such as Buddhism, Daoism or even Nestorian/Catholic 
Christianity, but the Mandate of Heaven stayed as an unchangeable law 
in political ideology to justify their governance.
    In modern Chinese history, the great revolt against Qing Dynasty by 
the Christian sect ``The Kingdom of Heavenly Peace Movement'' (1850-
1864) was led by Hong Xiuquan who viewed himself as ``the second son of 
God'' and ``the younger brother of Jesus Christ'' sent by God to 
eradicate demons and demon worship and ``the overthrow of the Manchu 
would help bring in the Kingdom of Heaven on earth.'' \6\ Sun Zhongshan 
(Sun Yat-sen 1866-1925) was a Christian and the first president of the 
Republic of China (1912-1949). He was a founder of the Guoming Party 
and in his process of overthrowing the Qiang dynasty referenced the 
book of Exodus in the Bible and spoke of Jesus as a liberator who 
motivated him as he said ``Moses did that, I can too,'' and ``Jesus is 
a revolutionary, so am I,'' etc.\7\ He also claimed that ``God sent him 
to struggle with evil for the Chinese . . . and liberating Chinese from 
bondage.'' \8\ He also said ``I am a Christian having fought demons 
more than forty years . . .'' \9\ The concept the Mandate of Heaven has 
even survived into the Communist China. For example, during the 1989 
student movement which led to the Tian-an-men Square massacre, ``many 
commentators remarked that the Communist Party has lost the Mandate of 
Heaven.'' \10\
    Because of this spiritual feature of the political concept, 
spiritual or religious movements in Chinese history make it easy to 
challenge ruling of dynasties through spiritual moral approaches, thus 
Chinese Governments are sensitive to the political-spiritual touch and 
are not tolerant of any spiritual movements shaking their ruling 
authority before the Chinese people. In addition, Chinese Governments 
have tended to keep state and religion separated through promoting non-
religious Confucianism throughout much of their history, and that is an 
efficient way to keep religious or spiritual movements out of politics.

  II. AN ANALYSIS OF DIFFERENT DEGREES OF FREEDOM AND SUPPRESSION OF 
  CURRENT SPIRITUAL-RELIGIOUS MOVEMENTS IN CHINA, AND THE PERSECUTION 
CASE OF CHRISTIAN LAWYER GAO ZHISHENG\11\ (REFER TO CECC SUBMISSION 1, 

                       2: STORY OF GAO ZHISHENG)
    ``The legal existence of the religious complexities totally relies 
on the co-operation and the acceptance of the leadership with the 
government, and the government grasps the very final right to choose 
the partnership.'' (Ding, August 1995. Volume 15, No. 88)\12\
    Though the Chinese Communist government is strongly atheist without 
believing in any spiritual things they are still sensitive to any 
spiritual movements that touch on politics being seen as a way of 
challenging their authority. On the other hand, the government tries 
hard to leave more room for those spiritual religions that respect 
their authority and abide by the religious policies, mostly in a way of 
promoting patriotic nationalism today. For instance, the Protestant 
Christian House Churches and Catholic Christian Underground Churches 
are persecuted, but the Protestant and Catholic Churches in the 
official Three-self Patriotic System (or TSPM) enjoy more freedom. 
Tibetan Buddhism is under suppression because of its feature of 
religion-politics combination, but Buddhism and Daoism in other parts 
of China enjoy comparatively much more freedom because they touch no 
politics. Islam among Uyghurs is under suppression because of the 
Xinjiang political problem, but Islam among Hui enjoys more freedom. 
This is true, not only inside same spiritual traditions, but also if we 
compare government treatments among different spiritual movements or 
religions in China.
    Similarly, the Qi-gong Movement has many branches. Some were 
suppressed but others are allowed more freedom. A Qi-gong branch, the 
Zhong-gong, was also suppressed and its leader Zhang Hongbao before his 
death in 2006 established a shadow government of China in the United 
States. Falun Gong, another branch of Qi-gong Movement, in its siege of 
the Party headquarters in Beijing on April 25, 1999, by more than 
20,000 Falun Gong practitioners, was the main factor for the Chinese 
Government to crackdown against the Falun Gong.\13\ The large number of 
public protest challenges to the government touched on politics 
seriously. One of Falun Gong's protest slogans after they went abroad 
is ``Heaven Eliminates Chinese Community Party'' which is an 
interpretation of the concept of the Mandate of Heaven.
    Among human rights Christian lawyers in China Gao Zhisheng received 
the most serious inhuman persecution because he was an attorney 
defending the religious freedom and human rights of some Falun Gong 
practitioners. The Falun Gong movement was suppressed more than other 
spiritual movements in China as CECC has pointed out. Therefore, when 
Gao Zhisheng did not gave up representing the Falun Gong members in 
China, the government attack of revenge on him has become severe.
    At this roundtable, CECC also asks: ``what does the Chinese 
Government's treatment of spiritual movements mean for the future of 
religious freedom in China? ''
    The sociologist Yang Fenggang proposes a Triple-color Market Model 
to analyze the religious situation in contemporary China: ``a red 
market (officially permitted religions), a black market (officially 
banned religions), and a gray market (religions with an ambiguous 
legal/illegal status). The gray market concept accentuates non-
institutionalized religiosity (2006, Purdue University).'' His three 
propositions are: ``to the extent that religious organizations are 
restricted in number and in operation, a black market will emerge in 
spite of high costs to individuals; to the extent that a red market is 
restricted and a black market is suppressed, a gray market will emerge; 
the more restrictive and suppressive the regulation, the larger the 
gray market.'' \14\
    This model can be applied to conditions in China today by stating 
that a red market means that religions or spiritual movements which do 
not touch on politics have the most freedom (e.g. non-Tibetan Buddhism 
and Daoism); a black market means that banned ones (such as Falun Gong) 
which do touch on politics in a way of challenging the Communist 
government authority suffer the most suppression. A gray market 
ambiguous in their political interest, such as non-institutionalized 
Protestant House Church Christianity (Catholic Underground Church is 
closer to the black market because of its political feature extended 
from the Vatican), will continue to grow larger as others are 
encouraged or suppressed.

III. CONCLUSION WITH A SPECULATIVE ANALYSIS ON THE ROLE OF CHRISTIANITY 
                FOR FUTURE OF RELIGIOUS FREEDOM IN CHINA

    Chinese Governments through the history have not tolerated 
spiritual or religious movements which ``touch on politics'' because 
the moral claims they hold make it easy to powerfully challenge the 
authority of the government through the concept of the Mandate of 
Heaven when a government does not benefit all the people or is seen as 
corrupt.
    Interesting to note, Christians in China see in the Bible the 
mandate to pray for the government to prosper so that they may prosper 
also.\15\ While the Protestant Christian House Churches maintain 
spiritual and moral standards of behavior and its church setting 
teachings emphasize ``we do not touch politics,'' \16\ ``blessed are 
those who are persecuted for righteousness'' or even ``love your 
enemies and pray for those who persecute you (Matthew 5:10,44)'' as the 
followers of Jesus Christ, they are not a direct political threat to 
government and seem to have a bright future in China even under 
attempts of the government to restrict or suppress them. One important 
reason for the tighter restriction and suppression is the lesson 
learned by Chinese Government from Eastern Europe's Communist regimes 
which collapsed with Christianity playing an indirect role.
    The founder and president of ChinaAid Association with the mission 
of help the persecuted churches and promote religious freedom in China, 
Bob Fu, a pastor and theologian, pointed out that ``House churches 
which are committed to the sole headship of Christ in the church and to 
evangelism must operate as illegal groups conducting so-called `illegal 
religious activities,' and consequently must suffer the administrative 
penalties inflicted by the state.'' \17\
    Together Christianity in the gray market House Church and the red 
market TSPM Church is transforming the condition of religious freedom 
in China through the ``new non-institutionalized religious citizen 
community'' \18\ established in the whole nation.

(Refer to CECC Submission 3: 2009 Annual Report of ChinaAid 
Association.)

--------------------------

    \1\ Valerie Hansen, The Open Empire, a history of China to 1600, 
(New York-London: W. W. Norton & Company, 2000), 40-41.
    \2\ Compiled by WM. Theodore de Bary and Irene Bloom, Source of 
Chinese Tradition, Volume I, from earliest times to 1600, (New York: 
Columbia University Press, 1999), 27.
    \3\ Valerie Hansen., 41.
    \4\ Ibid.
    \5\ Ibid.
    \6\ Richard Hooker, Ch'ing China: The Taiping Rebellion, http://
www.wsu.edu/dee/CHING/TAIPING.HTM
    \7\ Wang Zhongxin, Sun Zhongshan and Christianity, Christianity and 
China, Volume IV, (The Blessings Foundation, Inc. CA, USA), 15.
    \8\ Ibid.
    \9\ Ibid., 15-16.
    \10\ Valerie Hansen., 41.
    \11\ More information on www.freealim.com
    \12\ cf. Bob Fu, God and Caesar: Church and State Relations in 
Communist China, Professor in Religion and Philosophy at Oklahoma 
Wesleyan University for the 2003-2005 academic years.
    \13\ James W. Tong, Revenge of the Forbidden City: The Suppression 
of the Falungong in China, 1999-2005.
    \14\ Fenggang Yang, The Red, Black, and Gray Markets of Religion In 
China, The Sociological Quarterly 47 (2006) 93-122  2006 Midwest 
Sociological Society.
    \15\ Jeremiah 29:7 ``Also seek the peace and prosperity of the city 
to which I have carried you into exile. Pray to the Lord for it, 
because if it proper, you too will prosper.'' See also, Romans 13:5-6 
``Therefore, it is necessary to submit to the authorities, not only 
because of possible punishment but also because of conscience . . . for 
the authorities are God's servants . . .''
    \16\ When Bob Fu was arrested and interrogated in Beijing 1996 
because his leadership of a house church, he answered the police after 
he was put in the jail: ``I didn't preach anything about politics in 
our church, because I believe the separation of the church and state.'' 
The police answered: ``I want you to know that you must talk politics 
everywhere.'' That meant the government wants the house church to 
support the communist politics everywhere.
    \17\ Bob Fu, God and Caesar: Church and State Relations in 
Communist China.
    \18\ ChinaAid Association, 2009 Annual Report of Persecution by the 
Government on Christian House Churches within Mainland China, Part V 1. 
Church as a Corner Stone of Chinese Citizen Society.

                      SUBMISSION FOR THE RECORD #1

                      Excerpt from www.FreeGao.com

    ``Christian human rights Attorney Gao Zhisheng was seized by a 
dozen police officers and last seen in public on February 4, 2009. Gao 
has been repeatedly kidnapped, arrested, imprisoned and tortured by 
Chinese authorities for defending the persecuted. He has been an 
unyielding and iconic advocate for justice in the Chinese courts and 
was even nominated for the Nobel Peace Prize in 2008.
    On January 21, 2010, the Chinese Government publicly acknowledged 
Gao Zhisheng to be in their custody, for the first time since his 
abduction more than 365 days ago. In response to a reporter's inquiry, 
Chinese Foreign Ministry Spokesperson Ma Zhaoxu said: ``The relevant 
judicial authorities have decided this case, and we should say this 
person, according to Chinese law, is where he should be.'' Mr. Ma then 
added, ``As far as what exactly he's doing, I don't know. You can ask 
the relevant authorities.''
    The Ministry's comments brought a glimmer of hope to Gao supporters 
around the world. Since December 2009, rumors of Gao's death from 
torture in prison have spread uncertainty. Just one week before Mr. Ma 
spoke to the media, Gao's older brother, Gao Zhiyi, was informed by a 
police officer that Gao Zhisheng had gotten ``lost and went missing 
while out on a walk'' in September, 2009. The news of his death, then 
alleged disappearance, devastated Gao's wife and children.
    Finally, on January 20, 2010, an Australian newspaper reported from 
an inside source that ``Gao is still alive at present . . . he's not 
missing.''

                      SUBMISSION FOR THE RECORD #2

Excerpt from ChinaAid's newsletter, distributed by ChinaAid on May 10, 
                            2010, via email

    ``ChinaAid thanks you for your continued support of Gao Zhisheng. 
We have learned that Gao was last seen on April 15-16 visiting his in-
laws in Xinjiang. He did not return to his Beijing apartment the 
following week, as he was scheduled to according to the family. He has 
not been seen or heard from him since.
    ``ChinaAid is actively searching for Gao and news of his condition 
and whereabouts. With no news in over three weeks, we fear Gao Zhisheng 
has been forced to disappear again. We will continue to press for 
information, and keep all Gao supporters updated with the latest 
confirmed news. We thank you for your continued prayers and support for 
Gao Zhisheng, and will not relent until Gao has been released, and is 
able to reunite with his family in the United States.
    ``As we continue to press for Gao Zhisheng, ChinaAid remains 
committed to defending other persecuted faithfuls in China. Hundreds of 
thousands suffer persecution for their faith, and in extreme cases, 
like that of Uyghur Christian Alimujiang Yimiti, it takes a global 
effort to call for justice.''

                      SUBMISSION FOR THE RECORD #3

 Excerpt from the 2009 ChinaAid ``Annual Report of Persecution by the 
Government on Christian House Churches within Mainland China,'' Part V, 
     Section 1. Church as a Corner Stone of Chinese Citizen Society

    ``In his classical book ``Citizenship and Social Class'' (1964), T. 
H. Marshall defined modern citizenship as ``a personal status 
consisting of a body of universal rights, i.e., legal claims on the 
state, and the duties held equally by all legal members of a nation-
state (Marshall; Brubaker 1992).'' He also defined three basic rights 
of modern citizenship: civil rights, political rights and social 
rights.
    Many scholars agree that the legal requirements for an emergent 
capitalist society were chiefly responsible for the birth of modern 
citizenship rights and that ``the struggle to extend citizenship in the 
nineteenth and twentieth centuries was carried on primarily by English 
working class through such important democratic movements as Chartism, 
the Factory Movement, and trade unionism,'' yet Margaret R. Somers 
argues that the ``social and political movements of those tumultuous 
industrializing epochs were built primarily on the efforts, political 
identities, and social activities of rural industrial working peoples 
in the pastoral regions (Somers 1993, Michigan University).'' For 
Somers, ``varying patterns of institutional relationships among law, 
communities and political culture were central factors in shaping 
modern citizenship rights,'' and she argues that citizenship as an 
instituted process rather than a status.''
    To apply the above theories to China, we should admit that Chinese 
society is just starting to evolve into a citizenship society. Based on 
the 2009 report of persecution on House Church Movement in China, we 
also need to add religious rights, which were not such a concern for 
19th and 20th century Christian Europe, to the three citizenship rights 
listed above. Then, to apply these four central rights theory we can 
see three major elements in the institutional process contributing to 
the construction of a Chinese citizenship society based on the emerging 
national capitalism since 1979. In the last 20 years these have been: 
the Western Law infrastructure borrowed by China, a Church Movement 
Community, as well as traditional symbolic political culture 
originating in Communist ideology, Confucianism and other ideas, which 
have stimulated needs for citizenship (Shan Chuanhang, 2008, Boston 
University, with an acknowledgment to Dr. Nancy Ammerman). The 
community used to be in the three major elements formula was an 
intellectual one but it faded away from the instituted process after 
1989's brutal suppression and replaced by church movement community.
    The Christian communities (mostly House Church Movement and Three-
Self Church) in China grew fast in an invisible model because of 
persecution, yet it emerges as a new social and spiritual block in 
society, through not giving up meeting together. Beijing Shouwang, 
Shanghai Wanbang, Chengdu Qiuyu zhifu and Guangdong Liangren house 
churches were all typical examples in 2009 of churches that did not 
give up meeting together under severe pressure from the government. 
Christian communities, similarly to the pastoral regions of Europe in 
19th and 20th centuries, can also shape powerfully a Chinese 
citizenship society with a possible future ``plausibility structure'' 
(Peter L. Berger, 1966, Boston University).
                                 ______
                                 

                    Prepared Statement of Sarah Cook

                             JUNE 18, 2010

    Good afternoon.
    One of the topics I've been asked to speak about is the story of 
Gao Zhisheng, a leading Chinese human rights lawyer and vocal advocate 
for religious freedom, particularly for Falun Gong practitioners. 
Several years ago I had the honor of co-editing the English translation 
of Gao Zhisheng's memoir A China More Just. So, as I was considering 
how to begin today, I tried to think of what Gao would say if he were 
here today himself. There are two points that he would probably 
emphasize.
    First, he would give a heartfelt thank you. Thank you to the 
Commission for organizing this panel. Thank you to the United States 
government for taking an active interest in the human rights abuses 
taking place in China. Thank you to those in the audience who care for 
the Chinese people.
    Second, he would likely seek to convey the urgency of the current 
situation and the brutality of the treatment suffered by large numbers 
of Chinese people generally, but also of Falun Gong practitioners in 
particular. It is clear from his writings that the account after 
account of severe torture he heard from the Falun Gong victims he had 
interviewed left a profound impression on him and served as a key 
catalyst in his advocacy on their behalf.

          With a trembling heart and a trembling pen, I record the 
        tragic experiences of those [Falun Gong practitioners] who have 
        been persecuted in the last six years. Of all the true accounts 
        of incredible violence that I have heard, of all the records of 
        the government's inhuman torture of its own people, what has 
        shaken me most is the routine practice of assaulting women's 
        genitals. Almost all who have been persecuted, be they male or 
        female, were stripped naked 
        before being tortured. No words can describe our government's 
        vulgarity and immorality.\1\

    While not spoken in quite such colorful language, Freedom House's 
findings generally reflect what Gao had discovered.
    But before moving onto some specific details, I'd like to take a 
step back to address the question of why this is happening and to point 
out that the repression of Falun Gong and spiritual movements in China 
cannot be viewed in a vacuum. Rather, it is part of an elaborate 
machinery of suppression that arbitrarily and systemically denies 
independent thought and expression in a range of areas in Chinese 
society. Moreover, Freedom House's findings indicate that this 
repression is, in some respects, getting worse.
    In the past few decades, the Communist Party's tactics for 
suppressing free thought have become more sophisticated. But the 
underlying principle and institutional dynamic remains the same: the 
decision of what is approved or forbidden is made arbitrarily by Party 
leaders and that decision is generally based on their perception of 
threats to their monopoly on political power or legitimacy, whether 
these threats are real or imagined. This dynamic is reflected in every 
set of media censorship directives issued by the Communist Party's 
Propaganda Department that gets leaked and posted online, but it 
applies equally to spiritual movements.
    Thus, whatever the specific timeline of events in the mid to late 
1990s, one angle for explaining the banning of Falun Gong and other 
smaller spiritual groups is that Party leaders did so: a. because they 
could and there was no institutional mechanism like an independent 
judiciary to stop them; and b. because the Communist Party generally 
has a low tolerance for groups or individuals who place any authority, 
spiritual or otherwise, above their allegiance to the Party.
    For persecuted Tibetans, this authority is the Dalai Lama; for 
persecuted human rights lawyers--whom I'll get to in a moment--it is 
the law; for persecuted Falun Gong adherents, it is the dedication to 
spiritual teachings centered on the values of truthfulness, compassion, 
and tolerance. The Party's emphasis on ``transforming'' Falun Gong 
practitioners--similar to its ``patriotic education'' campaigns in 
Tibet--is one indication of this pursuit of suppressing independent 
thought.
    Since 1999, Freedom House's annual and other publications have 
recorded the ongoing rights abuses suffered by those who practice Falun 
Gong in China. Several aspects of the persecution stand out from a 
review of those findings. I'll mention them briefly here and am happy 
to followup on in more detail during the Q and A.

        <bullet> First, large scale detentions and widespread 
        surveillance. These appeared to intensify in 2008 and 2009 even 
        from the already high levels experienced over the past decade. 
        Falun Gong practitioners were a key target in what amounted to 
        a broader crackdown surrounding the Olympics and a series of 
        politically sensitive anniversaries. In addition to detention 
        and monitoring, this phenomenon included regular citation in 
        official statements on ``strike hard'' campaigns and in offers 
        of monetary rewards to members of the public for turning in 
        individuals distributing information related to Falun Gong.
        <bullet> Second, ongoing torture and deaths in custody. While 
        Freedom House does not have the resources to maintain a 
        comprehensive record of such deaths, well-documented individual 
        cases come to light each year, while overseas Falun Gong groups 
        have gathered detailed accounts of over 3,000 people killed in 
        the last decade. In one high-profile case from 2008, Beijing 
        musician Yu Zhou died in custody 11 days after being detained 
        for possessing Falun Gong literature in late January; his wife, 
        Xu Na, was sentenced in November to three years in prison.\2\ 
        In January 2009, Chongqing resident Jiang Xiqing died while 
        held at a ``reeducation through labor'' camp for practicing 
        Falun Gong; lawyers seeking to investigate his death were 
        detained and beaten.\3\
        <bullet> Third, the sentencing of practitioners to long prison 
        terms following unfair trials or to ``reeducation through 
        labor'' camps by bureaucratic fiat. Based on interviews with 
        recently released detainees, a February 2009 study by the 
        Chinese Human Rights Defenders group reported that in addition 
        to petty thieves and drug addicts, Falun Gong practitioners 
        constituted a significant percentage of those incarcerated in 
        the camps, as did Christians in some facilities.\4\ Given a 
        nationwide labor camp population numbering in the hundreds of 
        thousands, if not more, and former prisoners' accounts of 
        hundreds of religious prisoners in individual camps, this 
        translates into potentially tens of thousands of detainees.
        <bullet> Fourth, Falun Gong is a permanent taboo for Chinese 
        media outlets and one of the most systematically censored 
        topics on the Internet. In addition to the well-known use of 
        technical filtering to block access to Falun Gong-related 
        websites, tests conducted as part of a recent Freedom House 
        study of Internet freedom in China found that entries 
        containing the keyword ``Falun Gong'' (as well as ``June 4'' or 
        the ``Dalai Lama'') could not be displayed on Chinese blog 
        hosting services, including the simplified Chinese version of 
        Microsoft's MSN Space Live service and Skype's Chinese version, 
        Tom.\5\
          Those who seek to spread information despite these 
        restrictions risk detention and imprisonment. Several well-
        documented cases have emerged in recent years of Chinese 
        citizens imprisoned simply for downloading, printing, or 
        possessing Falun Gong-related materials, either for their 
        personal use or for sharing with others. These included victims 
        who were not Falun Gong practitioners. For example:

                <all> In November 2008, Liu Jin, a former university 
                librarian, was sentenced to three years in prison in 
                Shanghai after she downloaded information about Falun 
                Gong from the Internet and passed it to others, which 
                her lawyer argued was a common occurrence.\6\
                <all> In March 2009, Zhang Xingwu, a retired professor 
                and Falun Gong practitioner from Shandong province, was 
                sentenced to seven years in prison after security 
                forces broke into his home and confiscated VCDs and 
                religious texts related to Falun Gong.\7\
                <all> Last month, grassroots democracy activist Ren 
                Ming from Shenzhen was reportedly sentenced to three 
                years in prison for distributing CDs bearing a Falun 
                Gong symbol.\8\

    It is in this context of a persecuted religious minority facing 
large scale, brutal treatment from the authorities on the one hand, and 
silence, if not cooperation, from most of society on the other, that 
Gao Zhisheng and other lawyers' efforts to represent Falun Gong 
practitioners become relevant.
    As brief background on Gao, he was born in rural Shaanxi province 
and grew up in his mother's cave dwelling. In the late 1980s, he was 
selling vegetables on the streets of Xinjiang province when he came 
across and advertisement that the government was seeking to train 
lawyers. So, with just a middle school education, he decided to teach 
himself and in 1995, he passed the bar exam. In addition to his regular 
cases, he immediately started taking pro bono ones for the gamut of 
China's vulnerable groups. He soon became known nationwide and in 2001, 
was named one of China's top 10 lawyers after a legal debate 
competition sponsored by the Ministry of Justice.
    It was in this context that in 2004, Gao was one of the first 
lawyers to break the Falun Gong taboo. He was hired by an adherent who 
had been sent to a labor camp and was stunned that judges repeatedly 
rejected his efforts to file for judicial review. He writes about 
visiting multiple courts in one day and being told by three judges: 
``Don't you know we don't take Falun Gong cases?'' With legal avenues 
closed, Gao decided to write an open letter to the National People's 
Congress and a few months later, he conducted the first of two in depth 
investigations into the persecution of Falun Gong. In October and 
December 2005, he wrote two open letters to Hu Jintao and Wen Jiabao, 
detailing the torture he had uncovered and urging them to end the 
atrocities.
    In response, as many here probably know, he and his family were put 
under escalating pressure and abuse themselves: from 24-hour 
surveillance to having his law firm shut down and license revoked, to 
an attempt on his life and repeated incommunicado detentions. In 
December 2006, Gao was sentenced in a one day trial to three years in 
prison. But this was suspended and the Chinese authorities have instead 
used ``disappearance'' rather than imprisonment as their preferred 
tactic against him.
    It was only in February 2009, that, in an incredible feat of 
courage, we learned the full details of the torture he had suffered 
during his previous detention. In a letter he managed to send abroad, 
Gao chronicled being stripped naked and shocked with electric batons on 
his genitals, among other acts torture. Guards reportedly told him that 
the conclusions of his investigations were accurate and that these were 
indeed the torture methods ``perfected'' on Falun Gong practitioners, 
all the while pressuring him that if he simply said a few negative 
comments about Falun Gong and/or praise to the Party, the torture would 
cease.\9\ Almost immediately with the release of the letter, Gao was 
abducted again. His family managed to flee China to Thailand, but Gao 
remained ``disappeared'' throughout much of 2009. As the months went 
on, his family, friends, and fellow lawyers grew increasingly fearful 
that he had been killed in custody. In March 2010, the authorities 
allowed him to resurface following an intense international campaign on 
his behalf. But after the international limelight faded, he disappeared 
again in April. He hasn't been heard from since.
    Ironically perhaps, Gao never actually had the opportunity to argue 
in defense of a Falun Gong client in court. But, at least 20 lawyers 
have followed in his footsteps and done so. In response, they too have 
been temporarily or permanently disbarred, beaten, abducted, shocked 
with electric batons, held in a cage at a police station, and in at 
least one case, imprisoned for seven years under the same arbitrary and 
vague legal provision used to justify imprisonment of his Falun Gong 
clients.
    The authorities' mistreatment of these lawyers reflects two broader 
implications of the campaign against certain spiritual groups for the 
future development of religious freedom and rule of law in China.
    First, the tactics and strategies developed to suppress one group 
can be quickly and easily applied to others. From vague legal 
provisions, to ``black jails,'' to certain torture and 
``transformation'' methods, the lawyers and others have remarked on how 
elements first used against Falun Gong practitioners are then applied 
to other victim groups, including the lawyers themselves. It is evident 
from the writings and comments of Gao and other lawyers that the reason 
they take such a risk defending Falun Gong and other persecuted 
religious believers is because they feel very strongly that if the 
current system is not able to protect these innocent people from such 
severe abuses, others are at risk at well.
    Second, the Communist Party's intransigent and harsh response to 
these lawyers highlights its general reluctance to institute genuine 
rule of law. Indeed, as Jerome Cohen has repeatedly noted in his 
writings, in the past two years there appears to have been a 
backsliding on even previous, limited reforms, while Party control over 
the judicial system has tightened.
    This reality raises complex questions of what actions the United 
States government and other members of the international community 
might be able to take to improve the situation for individuals like Gao 
or Falun Gong practitioners. While not comprehensive, I hope that the 
following three recommendations may prove helpful as a starting point 
for such a discussion:

          1. Continue to lobby for the release of individual prisoners 
        of conscience: As harshly as Gao Zhisheng has been treated by 
        Chinese security forces, there is little doubt that his 
        situation would be even more dire without the intense 
        international pressure that has been applied to the Chinese 
        regime on his behalf. Other former prisoners whom I have 
        interviewed and who were the subject of international appeal 
        campaigns--including Falun Gong practitioners--have repeatedly 
        testified to the noticeably less harsh treatment they received 
        compared to their fellow, more internationally anonymous, 
        detainees.
          2. Support initiatives to independently research and verify 
        more individual cases: Central to the ability to advocate on 
        behalf of individuals and to gauge the full scale of abuses 
        targeting spiritual movements is the capacity to verify 
        individual cases of religious prisoners. Despite the 
        sensitivity of the issue and difficulty in obtaining 
        information about Falun Gong or Christian prisoners, there are 
        avenues for doing so. Increased support, including funding, for 
        groups taking the initiative to compile credible prisoner lists 
        could translate into real protection for members of these 
        persecuted minorities.
          3. Remain vigilant in the face of Chinese official pressure 
        to self-censor outside of China: Although this is not the focus 
        of today's discussion, pressure to self-censor beyond China's 
        borders is a daily reality for Falun Gong practitioners--
        similar to Tibetans, Uighurs, and others--who seek to organize 
        events that might expose abuses in China or challenge the 
        Communist Party's dominant narrative about the country's 
        current reality. It is critical that outside China, hosts of 
        cultural, academic, or other events be vigilant in protecting 
        the right to free expression for all, including those whose 
        voices are systematically silenced within China.

    There is one last point I'd like to make before I conclude--on a 
more optimistic note. Parallel to the increased repression we've seen 
in China in the past few years has been a growing rights consciousness 
on the part of ordinary citizens. Indeed, one might argue, the 
insecurity of the regime in the face of a more assertive citizenry is 
one reason for the expanded repressive apparatus. As with workers, 
bloggers, and journalists, Falun Gong practitioners have also been 
among those using incredible ingenuity, creativity, and courage to 
challenge the repression against them, primarily by trying to convince 
fellow citizens of the justice of their cause.
    Having begun with quoting Gao, I'd like to conclude with a few his 
words on the potential affect of their efforts.

          More and more people around me, including professionals, 
        scholars, government staff members, and ordinary Chinese 
        citizens have begun to question the rationale behind the 
        campaign against these believers. This has been a palpable 
        change. . . . These people have come to realize how unjust, 
        inhumane, and lawless the government's violent persecution of 
        the Falun Gong people is. This rapid, widespread change in 
        attitude stands in stark contrast to the government's static, 
        outdated practice. It is really quite thought-provoking.'' \10\

    I hope that at some point in the future, Gao will be able to be 
here himself to speak these words. Thank you.

----------------

    \1\ Gao Zhisheng, A China More Just, Broad Press USA (2007); pg. 
137
    \2\ Freedom House, ``China,'' Freedom in the World 2009: http://
www.freedomhouse.org/template.cfm?page=363&year=2009&country=7586
    \3\ Freedom House, ``China,'' Freedom in the World 2010: http://
www.freedomhouse.org/template.cfm?page=22&year=2010&country=7801
    \4\ Chinese Human Rights Defenders, ``Re-education through Labor 
Abuses Continue Unabated: Overhaul Long Overdue,'' February 2009: 
http://docs.law.gwu.edu/facweb/dclarke/public/CHRD--RTL--Report.pdf
    \5\ Freedom House, ``China'' Freedom on the Net 2009: http://
www.freedomhouse.org/template.cfm?page=384&key=197&parent=19&report=79
    \6\ Ibid.
    \7\ Freedom House, ``China,'' Freedom of the Press 2010 
(forthcoming)
    \8\ Chinese Human Rights Defenders, ``China Human Rights Briefing 
Weekly: May 18-24, 2010,'' May 26, 2010; available at http://
blogs.amnesty.org.uk/blogs--entry.asp?eid=6592
    \9\ Gao Zhisheng, ``A Letter from the Twenty-first Century 
Dungeon--Over Fifty Days of Endless Inhumane Tortures in the Hands of 
the Chinese Government,'' published by China Aid on February 9, 2009; 
http://chinaaid.org/pdf/
Human%20Rights%20Lawyer%20Recounts%20Torture.pdf
    \10\ Gao Zhisheng, A China More Just, Broad Press USA (2007); pg. 
86

                       Submission for the Record

                              ----------                              


    Prepared Statement of Caylan Ford, Falun Gong Practitioner and 
      Volunteer Analyst and Editor, Falun Dafa Information Center

                             JUNE 18, 2010

    I would first like to thank you for the opportunity to submit this 
statement, and more importantly, for your efforts to shed light on this 
topic. My name is Caylan Ford, I am a practitioner of Falun Gong, and 
also a volunteer analyst and editor with the Falun Dafa Information 
Center. Today I would like to speak to the question of how Falun Gong 
perceives the persecution in China today, both in terms of its origins 
and its meanings, as well as the forces that will contribute to its 
eventual end. I should add the caveat that all Falun Gong practitioners 
have their own interpretations and understandings of these questions, 
but I will do my best to illuminate broad collective understandings.
    I'll first address the causes of the suppression in China. This is 
an issue that defies easy comprehension. Journalists, scholars, and 
other observers have offered a number of compelling explanations to 
help account for why the Chinese Communist Party viewed the peaceful 
and apolitical Falun Gong as such a threat. The size of the practice is 
the first thing that comes to mind. By 1999, widely cited government 
estimated put the number of Falun Gong practitioners in China in excess 
of 70 million people. That's larger than the membership of the 
Communist Party at the time, and it's likely the largest independent 
civil society group in the history of the PRC.
    Second, Falun Gong existed outside of official sanction; in March 
of 1996, because Falun Gong refused to charge money for the practice 
and wished to exercise autonomy over its activities, it withdrew from 
the state-run Qigong Research Association. Subsequent attempts to 
register with the government in another form were rebuffed, and so 
Falun Gong was, for three years, a vast popular religion with no 
oversight by the state. Third, some of the personalities involved--
namely Luo Gan and then-Party chief Jiang Zemin--were uniquely 
suspicious or jealous of Falun Gong's popularity, and as Willy Lam 
suggested in 2001, Jiang may have intended the suppression to be a 
means of consolidating personal power.
    There are other explanations as well that place the crackdown 
against Falun Gong in the context of broader cycles of ``fang and 
shou'' (relaxation and tightening) in Chinese politics. That is, after 
a remarkable period of tolerance toward qigong practices in the 1990s, 
the Communist Party again sought to reign in the influence and autonomy 
of these groups.
    All of these explanations likely contain some truth. Yet even taken 
together, they cannot account for the ferocity with which the 
suppression of Falun Gong has been pursued. For that, one must look to 
the very foundations of the Communist Party's rule, and understand how 
Falun Gong's spiritual message, however benign, undermined the sources 
of the Communist Party's legitimacy.
    The PRC, in a sense, a kind of theocracy, only its religion is a 
secular one. The Party's mandate to rule derives from its claim to 
possess exclusive knowledge of certain Truths. The Marxist/Leninist 
ideology, including its vision of history and definitions of progress, 
serve as the ideological basis for Communist Party rule. That no one 
really believes in Marxism in contemporary China does not make this 
less so; it only means that the Party's ideological standing is more 
tenuous than in past decades, and its eagerness to suppress others may 
be more acute.
    Falun Gong, and other independent religious groups, challenges the 
Party's ability to command faith and allegiance. The Communist Party 
believes in the primacy of human agency. Falun Gong believes that human 
agency is subordinate to divine authority. Where Mao Zedong spoke of 
struggling against the heavens, Falun Gong reconnects with a 
traditional Chinese aspiration to live in harmony with the Dao. Where 
Communism explains human behavior as a function of material 
determinism, Falun Gong's beliefs hold that human beings are innately 
good, that they are driven by conscience and compassion. And where the 
Party has sought to enhance its legitimacy over the last two decades by 
fostering economic growth, Falun Gong stresses that virtue is the 
source of true value.
    For approximately one week immediately following the ban on Falun 
Gong, carefully crafted editorials in Xinhua and the People's Daily 
which explained the ban focused on Falun Gong's moral philosophy. An 
editorial appearing in Xinhua on July 27, 1999, proclaimed that `` 
`truth, kindness and tolerance' principle preached by Li Hongzhi has 
nothing in common with the socialist ethical and cultural progress we 
are striving to achieve.''
    Another wrote that ``Marxist dialectic materialism and historical 
materialism represent the world outlook and methodology of the 
proletariat, and . . . the scientific theories of Marxism established 
on the basis of this world view should serve as the spiritual pillar of 
communists. Falun Dafa as created by Li Hongzhi preaches idealism and 
theism . . . and thus is absolutely contradictory to the fundamental 
theories and principles of Marxism.'' And so on.
    These editorials lasted little more than a week before eventually 
giving way to more incendiary attacks. But while they lasted, they 
provided a candid glimpse at why the Party viewed why Falun Gong with 
such trepidation. It is not because Falun Gong practitioners sought 
political power (they didn't), nor was it merely because of their size 
or independence from the state. Rather, Falun Gong offered a compelling 
moral philosophy, rooted in China's spiritual traditions, that was seen 
by Jiang Zemin as undermining the already faltering appeal of the 
party's ideology, and that cast the Party's moral deficiencies in stark 
relief.
    And so, because China's rulers believed themselves to be at odds 
with the principles of truth, compassion, and tolerance and with the 
theistic spiritual orientation of Falun Gong, they have pursued its 
adherents with incredible resolve.
    Understanding this dynamic can help answer another important 
question: why have so many Chinese Falun Gong adherents--tens of 
millions, by some estimates--persisted in exercising their faith when 
confronted with the full force of China's persecutory apparatus bearing 
down on them? Why don't they simply denounce Falun Gong? The objective 
of the imprisonment and the violence, after all, is forced religious 
conversion; if adherents recant, they are freed from detention. If they 
don't, they are held extrajudicially and subjected to painful 
punishment. And yet the choice for millions of Falun Gong adherents has 
been to persist in spite of the threats; to continue practicing Falun 
Gong, and in many cases to risk their lives in order to tell their 
compatriots about the persecution and the practice.
    To be clear, Falun Gong practitioners don't invite martyrdom. They 
seek not to be tortured; they want out of labor camps. But given the 
choice between recanting their faith or being tortured, most still 
choose the latter. What motivates them?
    The answer has already been alluded to. Falun Gong is suppressed 
because the Party fears that if people believe in divine authority, if 
they seek moral and personal inspiration from a religious belief 
system, then the Party loses control. The Communist Party dictates that 
a person's life belongs to the cause of Communism; a person possessed 
of a spiritual faith, by contrast, believes that life originates with 
and is connected to something which transcends this physical existence. 
They are thus far more impervious to control or coercion with threats, 
violence, with material incentives; they are their own people, their 
hearts and minds not the property or subject of the state.
    Falun Gong's capacity to resist elimination in China lies precisely 
in its belief, one shared by all religions, that life goes on in the 
hereafter, and that the state in which you exist in the next life is 
connected to how you choose to live in this one. Falun Gong's faith 
holds that the virtues of Truth, Compassion, and Tolerance describe the 
intrinsic nature of the universe itself; that they are eternal and 
undying. And if a person seeks to live in line with these principles, 
they are connecting to something far greater than themselves. If a 
person lives a life of honesty, of courage, of compassion and justice, 
then in that act alone they forge something that is everlasting; they 
achieve a kind of immortality.
    To observers who do not believe in an afterlife, who are pure 
pragmatists, Falun Gong's response to persecution as folly. But even if 
you don't believe in a life hereafter, there is still something to be 
said for living a life devoted to principles, or to believing that 
maybe virtue is its own reward. Posterity seldom remembers pragmatists. 
The great figures of history are men possessed of principles who made 
immense personal sacrifices in defense of justice. Were they 
pragmatists, people who put their own immediate interests ahead of 
principles, we would not know their names, nor would we be able to 
enjoy their legacy.
    This explains why Falun Gong adherents have resisted suppression in 
China, and why they have not folded in labor camps and under threat of 
violence. The same rationale also explains how Falun Gong has responded 
to the persecution.
    At some point in the last decade, you have likely encountered some 
manifestation of Falun Gong's response to persecution: the silent 
vigils of meditation kept outside Chinese embassies or consulates, the 
appeals of a young woman whose sister is held in a labor camp in China, 
or the rallies and marches meant to raise awareness of persecution in 
China. You have likely heard about the media outlets that some Falun 
Gong adherents started to provide an alternative to Chinese state-run 
television and newspaper, or about how software developed by American 
Falun Gong practitioners is now used to circumvent government 
censorship of the Internet from China to Iran, Syria to Burma.
    Some of these activities--and especially Falun Gong practitioners' 
efforts to encourage people to denounce their affiliations to the 
Communist Party--bear distinctly political overtones. This has given 
rise to the belief in some circles that the Falun Gong community has 
become a political force in China, or even that it seeks power for 
itself.
    But look more closely at Falun Gong's resistance and you find that 
it lacks the qualities of a true political movement. While most Falun 
Gong adherents believe that good government should be one that respects 
freedom of speech, of press, rule of law and that institutionalizes a 
separation of church and state, few of us would be likely to describe 
the solution to our suppression in China as lying in institutional or 
political change. Falun Gong has never sought to prescribe what China's 
government (or any other government) should look like. Its adherents do 
not covet political power or influence, and they do not participate in 
debates on other social or political issues. To put it plainly, Falun 
Gong adherents ascribe relatively little importance to political 
institutions in general.
    When the persecution began, Falun Gong initially responded somewhat 
incredulously, believing that the authorities had simply made a 
mistake. These were people who based their self-identity on being law-
abiding, peaceful people, and they 
believed that if they simply explained themselves, the suppression on 
Falun Gong would be lifted.
    Adherents' response was characteristic of what political scientist 
Kevin O'Brien describes as China's ``rightful resisters'': people who 
did not want to challenge the government, but instead wanted it to 
uphold its own laws and protect existing social contracts. These are 
people who, rather than going underground to engage in subversion, 
sought the government's attention and made appeals to its institutions 
and leaders in good faith. To that end, Falun Gong practitioners from 
across the country traveled to local petitioning offices where they 
hoped to explain why Falun Gong was no threat to the government and 
request that their rights be restored. It did not turn out well. The 
local appeal offices became gateways to labor camps and prisons.
    Practitioners soon began looking beyond their local government 
offices and toward Beijing, calling for dialogue, reconciliation, and 
understanding. Yet the results were no better. On any given day from 
late 1999 to early 2001, hundreds of Falun Gong adherents from around 
the country would turn up on Tiananmen Square to stage silent protests, 
to meditate, or to unfurl banners proclaiming Falun Dafa's goodness and 
innocence. They referred to these demonstrations never as protests, but 
as ``appeals,'' implying that they still held out hope that the 
leadership would change its mind. Nonetheless, they were met with 
brutal reprisals, and the violence and the scale of the suppression 
only escalated.
    In late 2001, and continuing to this day, Falun Gong adherents 
shifted focus. The Communist Party was committed to its course, but 
perhaps the people of China could be persuaded. If the people refused 
to be complicit, there would be no police willing to arrest 
practitioners, no teachers willing to turn in their students (or vice 
versa), no judges willing to be compromised. Denied any voice in the 
official media, the daily protests on Tiananmen Square gave way to 
autonomous underground printing houses in nearly every county and 
district in the country--China's equivalent of the Soviet Samizdat, one 
could say. From their living rooms, adherents would establish secure 
Internet connections, access websites outside China using proxy 
servers, download usually censored literature on the persecution of 
Falun Gong, and use it to produce homemade leaflets which they would 
distribute by nightfall. Falun Gong adherents living outside China 
worked to give scale to these efforts, creating censorship-
circumvention software, launching Chinese-language radio and satellite 
television, and so on. The belief guiding these efforts is that all 
people are inherently good; that if they can merely know the truth, 
their consciences will steer them toward justice.
    But persuading Chinese citizens to not be complicit in the 
persecution is a difficult task. Decades of political campaigns have 
the Chinese citizenry that the best course of action is to lay low, to 
keep one's head down, to follow orders, lest they also be targeted. 
Falun Gong's challenge is to convince people to put justice, and for 
the possibility of a better future ahead of their short-term interests. 
The best way we know to do that, from our own experiences in labor 
camps and detention centers, is to appeal to people's connection to 
eternal truths and virtues; to things which are lasting, and greater 
than any one of us.
    And so, while the efforts to encourage renunciation from the 
Communist Party may appear politically driven, look closer and you will 
find that the message is not that Falun Gong should be in power, or 
that democratic revolution should be fomented. The message is that 
virtue and integrity--the cornerstones of China's Confucian and 
Buddhist traditions--must return to China. The message is that China's 
greatness, and the value of the Chinese people, lies precisely in the 
value that its culture places on moral courage, on compassion, and on 
justice.
    I began by addressing how we understand the origins of the 
persecution against Falun Gong in China, and I will conclude by sharing 
how we hope it might end. If you ask a Falun Gong practitioner in China 
what they would do if freedom of belief were afforded to them, they 
will probably tell you that they'd like to go back to practicing 
meditation in the parks in the morning. They don't want political 
power, even after all that has transpired. And the way we hope to bring 
this about is by convincing the people of China that their greatness as 
a country and as a people is not based on their money, or their power 
projection. Their value comes from the fact that they are a people of 
justice and compassion. They are a people who will not stand by 
passively as their neighbors are imprisoned and tortured, and are a 
people who can sacrifice short-term interests in defense of what is 
right. In our best-case scenario, the persecution will end when the 
Chinese people decide that they are better than this.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
